    An Investigation of Allegations of
          Politicized Hiring and
   Other Improper Personnel Actions in
         the Civil Rights Division




U.S. Department of Justice             U.S. Department of Justice
Office of the Inspector General        Office of Professional Responsibility




                                July 2, 2008

                      (Released Publicly January 13, 2009)
                                  TABLE OF CONTENTS



CHAPTER ONE: INTRODUCTION............................................................... 1

CHAPTER TWO: BACKGROUND ................................................................ 4

I.     Legal Standards ................................................................................ 4

II.    Organization of the Civil Rights Division............................................ 6

III.   Leadership of the Civil Rights Division, 2001 to 2007 ........................ 9

IV.    The Attorney Hiring Process in the Division..................................... 11
       A.      Hiring by Sections: 2001 to February 2002 ........................... 11
       B.      New Hiring Procedures: February 2002................................. 11
       C.      Memorandum on Personnel Practices: June 2007 ................. 13

CHAPTER THREE: ATTORNEY PERSONNEL DECISIONS: HIRING,
    TRANSFERS, CASE ASSIGNMENTS, AND OTHER PERSONNEL
    ACTIONS WITHIN THE CIVIL RIGHTS DIVISION ............................ 14

I.     Hiring ............................................................................................. 15
       A.      Schlozman’s Role in the Hiring Process.................................. 16
       B.      Additional Evidence and E-mails ........................................... 20
       C.      Schlozman’s Statements ........................................................ 25
       D.      Hiring in Civil Rights Division Sections Not Supervised by
               Schlozman............................................................................. 26
       E.      Honors Program and Summer Law Intern Program Hiring...... 28
       F.      Statistical Overview of Hiring of Career Attorneys................... 32
       G.      Analysis................................................................................. 33

II.    Transfers, Case Assignments, and Other Personnel Actions............. 35
       A.      Forced Transfers of Appellate Section Attorneys ..................... 35
               1.       Transfers of Attorneys A, B, and C................................ 36
               2.       Replacement Attorneys................................................. 41
               3.       Complaints About the Transfers ................................... 41
               4.       Analysis ....................................................................... 42
       B.      Case Assignments and Other Personnel Actions..................... 43


                                                   i
                1.      Factual Overview.......................................................... 43
                2.      Analysis ....................................................................... 45

III.    Management Failures...................................................................... 45
        A.      Factual Overview ................................................................... 46
        B.      Analysis................................................................................. 50

CHAPTER FOUR: SCHLOZMAN’S FALSE STATEMENTS
    TO CONGRESS ............................................................................... 53

I.      Statements About Hiring................................................................. 53

II.     Statements About Appellate Section Attorney Transfers .................. 59

III.    Additional Statement About Hiring While Interim
        United States Attorney .................................................................... 61

IV.     Criminal Referral ............................................................................ 63

CHAPTER FIVE: CONCLUSIONS AND RECOMMENDATIONS .................. 64

APPENDIX: Career Attorney Hiring, Civil Rights Division, 2003 – 2006 ...A-1




                          INDEX OF TABLES AND FIGURE


Table 1: Civil Rights Division Responsibilities and Attorney Staffing
         by Section (May 2008)............................................................. 8
Figure 1: Civil Rights Division Management, July 2001 –
          August 2007 ......................................................................... 9
Table 2: Political and Ideological Affiliations of Civil Rights Division
         Attorneys Hired from 2003 to 2006 ....................................... 33




                                                  ii
                                CHAPTER ONE:
                               INTRODUCTION*
        This report describes the results of the joint investigation by the
Office of the Inspector General (OIG) and the Office of Professional
Responsibility (OPR) into allegations that political or ideological
affiliations were considered in hiring, transferring, and assigning cases to
career attorneys in the Civil Rights Division of the Department of Justice
(Department). Career attorney positions in the Department are subject
to the merit system principles of the Civil Service Reform Act, which
prohibit discrimination in the federal work place based on, among other
things, political affiliation. See 5 U.S.C. § 2301, et seq. Complaints that
politics was affecting the attorney hiring process in the Civil Rights
Division received widespread public attention in April 2007 as a result of
allegations by Civil Rights Division employees that Bradley S. Schlozman,
a former senior Division official, hired lawyers for career positions based
on their political or ideological affiliations.

      Our investigation examined: (1) whether the Civil Rights Division
used political or ideological affiliations in assessing applicants for career
attorney positions, including the hiring processes for experienced
attorneys and entry-level attorneys hired through the Attorney General’s
Honors Program; (2) whether political or ideological affiliations resulted
in other personnel actions affecting career attorneys in the Division, such
as attorney transfers and case assignments; (3) whether the Division’s
senior management failed to recognize and correct any improper
consideration of political or ideological affiliations in the hiring and
treatment of career attorneys; and (4) whether Schlozman made false
statements in his testimony to Congress about these matters.



_____________________
      * We referred the findings from our investigation to the U.S. Attorney’s Office for
the District of Columbia in March 2008. We completed this written report of
investigation in July 2008.

       The U.S. Attorney’s Office informed us on January 9, 2009, of its decision to
decline prosecution of Schlozman. The Interim U.S. Attorney, Jeffrey Taylor, was
recused from the matter and the decision.

        We are now releasing our July 2008 report of investigation. The only changes
we made to the report as completed in July 2008 are the correction of two typographical
errors, and a few minor corrections based on suggestions by the U.S. Attorney’s Office.




                                           1
       This OIG/OPR joint investigation was conducted by a team
consisting of OIG and OPR attorneys, an OIG special agent, and OIG
program analysts. Our investigation examined the hiring practices of the
Civil Rights Division from 2001 to 2007. However, most of the
allegations focused in particular on the period of Schlozman’s tenure in
the Division, May 2003 through March 2006.

      The OIG/OPR team interviewed more than 120 current and former
employees of the Civil Rights Division, including political appointees,
career attorneys, and human resources personnel. We interviewed the
current Acting Assistant Attorney General (AAG) and 3 former AAGs for
the Civil Rights Division; all but one of the Deputy Assistant Attorneys
General (DAAG) during the period of our investigation; all of the current
and former section chiefs in the Division; and numerous attorneys, both
career and politically appointed, who worked in the Division. 1 Many of
those we interviewed are no longer employees of the Department.

       We were unable to interview several former Civil Rights Division
officials no longer employed at the Department who declined our request
for interviews. For example, Bradley Schlozman, who served as DAAG,
Principal Deputy Assistant Attorney General, and Acting AAG in the
Division, declined our interview request through his counsel. In
addition, J. Michael Wiggins, who also served as a Principal DAAG for the
Civil Rights Division, and Hans von Spakovsky, former Counsel to the
AAG, declined our requests to interview them as part of this
investigation. Jason Torchinsky, former Counsel to the AAG, did not
respond to our written request for an interview.

      We reviewed thousands of pages of documents pertaining to the
career attorneys hired in the Civil Rights Division from 2002 to 2007.
The documents included position announcements, résumés and
application materials, and other documents relating to interviews and
hiring. The team also reviewed over 200,000 e-mails of relevant
personnel in the Civil Rights Division, including Schlozman. 2 We also
reviewed documents relating to the transfer or attempted transfer by
Schlozman of three career attorneys from the Division’s Appellate
Section.



       1
         We interviewed 84 of the 112 attorneys hired in the Division’s 8 major sections
during the period from March 2003 to March 2006.
       2  The e-mails recovered do not represent the entire universe of e-mails sent or
received by the relevant persons during the period. Because of the Department’s
procedure for backing up and preserving e-mails, some e-mails were not recoverable.




                                            2
      This report is divided into five chapters. Following this
Introduction, we discuss in Chapter Two the laws, regulations, and
Department of Justice policies applicable to the use of political or
ideological affiliations in hiring or other treatment of career employees;
the structure and management of the Civil Rights Division during the
period of our investigation; and the hiring process in the Division.

       Chapter Three contains our factual findings and analysis, focusing
on the consideration of political or ideological affiliations in the hiring of
career attorneys, the effect of such affiliations on the transfers and case
assignments of career attorneys, and management failures that enabled
the conduct we identified to occur. Chapter Four describes Schlozman’s
statements to Congress and the evidence that we believe demonstrates
their falsity. Chapter Five summarizes our conclusions and
recommendations.




                                      3
                            CHAPTER TWO:
                            BACKGROUND

I.   Legal Standards

      In this section we discuss the federal laws and Department policies
relevant to the issue of whether it is illegal to consider political or
ideological affiliations in hiring attorneys for career positions or in
transferring or assigning cases to career attorneys. We conclude that
federal law and Department policy prohibit the use of political or
ideological affiliations to assess applicants for career attorney positions
in the Department and in the management of career attorneys.

       Positions for Department attorneys fall into two broad categories:
political and career. It is not improper to consider political affiliations
when hiring for political positions. However, as discussed below, both
Department policy and federal civil service law prohibit discrimination in
hiring for career positions on the basis of political affiliations. This
prohibition applies to experienced attorneys, as well as entry-level
attorneys hired for positions in the Attorney General’s Honors Program.

     The Department’s policy on non-discrimination is contained in the
Code of Federal Regulations, Section 42.1(a) of 28 C.F.R. Part 42,
Subpart A, which states:

      It is the policy of the Department of Justice to seek to
      eliminate discrimination on the basis of race, color, religion,
      sex, sexual orientation, national origin, marital status,
      political affiliation, age, or physical or mental handicap in
      employment within the Department and to assure equal
      employment opportunity for all employees and applicants for
      employment (emphasis added).

       While the regulation does not define “political affiliation,” courts
have considered “political affiliation” to include “commonality of political
purpose, partisan activity, and political support.” See, e.g., Curinga v.
City of Clairton, 357 F.3d 305, 311 (3d Cir. 2004).

      The Office of Attorney Recruitment and Management (OARM), the
Department component with primary responsibility for overseeing career
attorney hiring, states on its website:

      The U.S. Department of Justice is an Equal Opportunity/
      Reasonable Accommodation Employer. Except where
      otherwise provided by law, there will be no discrimination


                                      4
       based on color, race, religion, national origin, politics,
       marital status, disability, age, sex, sexual orientation, status
       as a parent, membership or nonmembership in an employee
       organization, or personal favoritism (emphasis added). 3

       In addition to Department policies, the Civil Service Reform Act
(CSRA) prohibits the Department from discriminating in hiring for career
positions based on political affiliation. For example, the CSRA states that
federal agencies must adopt hiring practices for career employees in which

       selection and advancement should be determined solely on
       the basis of relative ability, knowledge, and skills, after fair
       and open competition which assures that all receive equal
       opportunity.
5 U.S.C. § 2301(b).

      Moreover, the CSRA sets forth a series of merit system principles
by which federal agencies are to manage personnel decisions. One
principle directly addresses employment discrimination:

       All employees and applicants for employment should receive
       fair and equitable treatment in all aspects of personnel
       management without regard to political affiliation, race,
       color, religion, national origin, sex, marital status, age, or
       handicapping condition, and with proper regard for their
       privacy and constitutional rights.
5 U.S.C. § 2301(b)(2) (emphasis added).

        Another section of the CSRA also prohibits the consideration of
political affiliation in personnel matters involving career employees.
Section 2302(b)(1)(E) prohibits “discriminat[ing] for or against any
employee or applicant for employment . . . on the basis of . . . political
affiliation, as prohibited under any law, rule, or regulation.” 4
Section 2302(b)(12) of the CSRA makes it unlawful to “take or fail to take
any other personnel action if the taking or failure to take such action
violates any law, rule, or regulation implementing, or directly concerning,

       3   See www.usdoj.gov/oarm/attvacancies.html.
       4  Use of political affiliation violates Section 2302(b)(1)(E) only when it also
violates some other “law, rule or regulation.” We asked the Department’s Office of Legal
Counsel (OLC) whether 28 C.F.R. 42.1(a) qualified as a predicate for a violation of
Section 2302(b)(1)(E). OLC responded that “[o]ur informal conclusion is that
28 C.F.R. § 42.1 (2007) and the First Amendment constitute ‘law[s], rule[s] or
regulation[s]’ that prohibit considering political affiliation in hiring career attorneys to
Excepted Service Schedule A positions at DOJ.”




                                             5
the merit system principles contained in section 2301 of this title.” As
noted above, one merit system principle is that “all employees and
applicants for employment should receive fair and equitable treatment in
all aspects of personnel management without regard to political
affiliation . . . .” 5 U.S.C. 2301(b)(2).

       These policies and laws do not define “political affiliation.”
Nonetheless, identifying candidates as “liberal” or “conservative” by the
activities or organizations with which they are affiliated can be used as a
proxy for political affiliation and thus can violate CSRA’s prohibition.
Using ideological affiliation can also create the appearance that
candidates are being discriminated against based on political affiliation.
In addition, using ideological affiliation can violate the requirement that
the government use hiring practices for career positions that ensure it
identifies the best qualified applicants through fair and open
competition. See 5 U.S.C. §§ 2301 (b) (1) – (2).

        As a result, Department policy and the CSRA both prohibit using
political affiliation and may also prohibit using certain ideological
affiliations in hiring and taking other personnel actions with regard to
career attorneys.


II.   Organization of the Civil Rights Division

      The Department’s Civil Rights Division is responsible for enforcing
federal statutes prohibiting discrimination on the basis of race, sex,
disability, religion, and national origin. As of May 2008, 324 attorneys
and 324 support staff were assigned to the Division, all stationed in
Washington, D.C. The Division is divided into eight major sections:

              Appellate,
              Criminal,
              Disability Rights,
              Educational Opportunities,
              Employment Litigation,
              Housing and Civil Enforcement,
              Special Litigation, and
              Voting. 5


       5 The Division has three additional sections that are very small: the
Coordination and Review Section; the Office of Special Counsel for Immigration-Related
                                                                                (Cont.)


                                          6
The attorneys in each of the sections are supervised by section chiefs and
deputy section chiefs.

      Table 1 shows the number of attorneys assigned to each section
and the responsibilities of the sections as described by the Division’s
website.




Unfair Employment Practices; and the Office of Complaint Adjudication. We did not
review these sections because they collectively hired only two attorneys during the
period of review, one of whom was promoted from a non-attorney position within the
section after completing law school.




                                          7
              Table 1: Civil Rights Division Responsibilities and
                   Attorney Staffing by Section (May 2008)
Section                             Responsibilities
Office of the Assistant             Establishes policy and provides executive direction and control over
Attorney General                    the enforcement actions and the administrative management
(9 attorneys, including Assistant   activities within the Division.
Attorney General, Principal
Deputy Assistant Attorney
General, and 3 Deputy Assistant
Attorneys General)
Administrative Management           Provides administrative support to the Division.
(2 attorneys)
Appellate                           Handles civil rights cases in the federal courts of appeals and, in
(21 attorneys, including chief,     cooperation with the Solicitor General, in the United States Supreme
principal deputy chief, and         Court. Also provides legal counsel to other components of the
2 deputies)                         Department regarding civil rights law and appellate litigation.
Complaint Adjudication              Reviews cases provided to it by Department components or the Equal
(8 attorneys, including             Employment Opportunity Commission alleging employment
1 supervisory attorney)             discrimination by employees of the Department and renders a final
                                    decision for the Department.
Coordination and Review             Coordinates the enforcement by federal agencies of various statutes
(9 attorneys, including chief and   that prohibit discrimination in programs that receive federal financial
deputy)                             assistance. Also investigates complaints of discrimination against
                                    certain recipients of assistance from the Department.
Criminal                            Prosecutes violations of federal criminal civil rights statutes.
(54 attorneys, including chief
and 5 deputies)
Disability Rights                   Implements the Department’s responsibilities under Titles I, II, and
(41 attorneys, including chief      III of the Americans with Disabilities Act.
and 5 deputies)
Educational Opportunities           Enforces federal statutes that prohibit public school officials from
(16 attorneys, including chief      engaging in discriminatory practices involving both elementary and
and 2 deputies)                     secondary schools and institutions of higher learning.
Employment Litigation               Enforces against state and local government employers the
(36 attorneys, including chief      provisions of Title VII of the Civil Rights Act of 1964 and other federal
and 5 deputies)                     laws prohibiting employment practices that discriminate on the basis
                                    of race, sex, religion, and national origin.
Housing and Civil Enforcement       Enforces the Fair Housing Act of 1968, the Equal Credit Opportunity
(42 attorneys, including chief      Act, and Titles II and III of the Civil Rights Act of 1964, which prohibit
and 5 deputies)                     discrimination in places of public accommodations such as hotels,
                                    restaurants, and public facilities.
Office of Special Counsel for       Investigates and prosecutes employers charged with national origin
Immigration-Related Unfair          and citizenship status discrimination. Also investigates allegations
Employment Practices                of document abuse and retaliation as a result of the Immigration Act
(14 attorneys, including special    of 1990.
counsel and deputy)
Special Litigation                  Protects the constitutional and federal statutory rights of persons
(37 attorneys, including chief      confined in certain institutions owned or operated by state or local
and 3 deputies)                     governments. Also investigates state and local law enforcement
                                    agencies regarding patterns or practices of violating citizens’ federal
                                    rights and enforces the Freedom of Access to Clinic Entrances Act.
Voting                              Enforces the Voting Rights Act of 1965, the Voting Accessibility for the
(35 attorneys, including chief,     Elderly and Handicapped Act, and other statutory provisions
principal deputy chief, and         designed to safeguard the right to vote.
5 deputies)
Sources: Civil Rights Division website for responsibilities and Human Resources; Director, Civil
Rights Division, for attorney staffing numbers.



                                                 8
        III. Leadership of the Civil Rights Division, 2001 to 2007

               The Civil Rights Division is led by an Assistant Attorney General
        (AAG) appointed by the President and confirmed by the Senate. The AAG
        has four Deputy Assistant Attorneys General (DAAG), one of whom is the
        AAG’s principal deputy. Three of the DAAGs are “political” appointees,
        who typically are selected by the Attorney General or the White House.
        The Civil Service Reform Act, merit selection laws, and regulations do not
        apply to the selection process or tenure for these political appointees.
        The political DAAGs normally change with each administration. The
        fourth DAAG position is designated as a “career” appointment; that
        DAAG is selected by a merit selection process and remains in the
        position even after a change in administration.

              The DAAGs are assigned responsibility for overseeing the
        management of the Division’s sections. Each DAAG has supervisory
        responsibility for one to three sections.

               The Office of the AAG, which includes the DAAGs and several
        Counsel to the AAG and is often referred to collectively as the “front
        office,” establishes policy for the Division and provides executive
        direction for its management, enforcement actions, and administration.

             Figure 1 displays the names and tenures of the Division’s AAGs
        and DAAGs from 2001 to 2007.

                                    Figure 1: Civil Rights Division Management,
                                              July 2001 – August 2007
Year     2001       2002                   2003                   2004                    2005                   2006                    2007
Month    J A S O N DJ F M A M J J A SO N D J F M A M J J A SO N D J F M A M J J A S O N D J F M A M J JA S O N D J F M A M J J A S O N D J F M A M J J A

                                Ralph Boyd                                           R. Alexander Acosta       Acting                          Wan Kim
                                                                   Acting AAG




AAG                         July 2001 - July 2003                                  August 2003 - June 2005      AAG                    November 2005 - August 2007
                                                                                                             June-Nov 05




                                                                                                                             Bradley
PDAAG                     R. Alexander Acosta           J. Michael Wiggins             Sheldon Bradshaw                                            Rena Comisac
                                                                                                                           Schlozman



DAAG
                                                                                           Loretta King
Career



DAAG       Acosta                                                                 Bradley Schlozman                                            Grace Chung Becker




DAAG                            Robert Driscoll                                                 Wan Kim                                             Asheesh Agarwal




Source: Civil Rights Division, Administrative Management Section

Notes: Wiggins served as Acting AAG for less than 2 months after Boyd's departure.
       Schlozman was PDAAG for about 2 months after Bradshaw's departure, before becoming Acting AAG.
        Driscoll also served as AAG Boyd's Chief of Staff.




                                                                                    9
      As depicted in Figure 1, the first AAG for the Civil Rights Division
during the period of our investigation was Ralph F. Boyd, Jr. He was
confirmed in July 2001 and served as AAG until July 2003. Boyd’s
DAAGs were, at various times, R. Alexander Acosta, J. Michael Wiggins,
Robert Driscoll, Bradley Schlozman, and Loretta King. Throughout this
period, King was the Division’s career DAAG. Acosta was the Principal
DAAG until he left the Department in December 2002, at which time
Wiggins became the Principal DAAG.

        Schlozman joined the Department in November 2001, serving
initially in the Office of the Deputy Attorney General. He became a DAAG
in the Civil Rights Division in May 2003.

       Upon Boyd’s departure, Acosta became the Division’s AAG in
August 2003. Wiggins, Schlozman, and King continued as DAAGs. In
addition, Wan Kim was appointed a DAAG. When Wiggins moved to a
position in the Office of the Associate Attorney General in October 2003,
he was replaced as Principal DAAG by Sheldon Bradshaw. Bradshaw left
the Department in April 2005, at which time Schlozman became the
Principal DAAG.

       In June 2005, Acosta was appointed as the United States Attorney
in the Southern District of Florida. Schlozman served as Acting AAG for
the Division for the next 5 months until Wan Kim was confirmed as AAG
in November 2005. After Kim’s confirmation, Schlozman again became
Principal DAAG. King was the only other DAAG until early 2006, when
Grace Chung Becker and Asheesh Agarwal were appointed to DAAG
positions.

      In March 2006, Schlozman was appointed to serve as the
U.S. Attorney in the Western District of Missouri on an interim basis.
Rena Comisac succeeded Schlozman as the Division’s Principal DAAG.

      Schlozman remained in the interim U.S. Attorney position for
approximately 1 year, until the nomination and confirmation of a
permanent U.S. Attorney (John F. Wood) in March 2007. Schlozman
then returned to Washington and took a position in the Executive Office
for United States Attorneys (EOUSA). He resigned from the Department
on August 17, 2007.




                                    10
IV. The Attorney Hiring Process in the Division

      A.    Hiring by Sections: 2001 to February 2002

       Prior to 2002, hiring in the Division was initiated and carried out
by each of the Division’s eight major sections. When an opening for an
attorney position arose within a section, the section chief sought
authority from the Division’s front office to advertise for the position.
The postings were made for a specific position within a specific section of
the Division. Once the application period closed, section managers
(chiefs and deputies) screened applications, decided which candidates to
interview, and conducted interviews without the involvement of the AAG
or DAAGs.

       Upon completing the interview process, the section chief
recommended the section’s choice to the Division front office and sought
approval to hire that person. Typically, the AAG and the DAAGs did not
interview the candidate or have any involvement in the process other
than to approve this request. In fact, the section chiefs we interviewed
could not recall any instance before 2002 in which their hiring
recommendation was not approved.

      B.    New Hiring Procedures: February 2002

       In February 2002, during the tenure of AAG Boyd, the Division
changed its hiring procedures. Boyd directed the Executive Officer of the
Division to issue a memorandum to all section chiefs entitled, “New
Attorney Hiring Process.” This memorandum described changes in the
Division’s process for the recruitment and selection of experienced
attorneys. The memorandum stated that the changes were being made
to create a more centralized system of recruitment and selection for
experienced attorney positions in the Division. Boyd told us that he
instituted these changes both to improve diversity and to ensure the
consideration of applicants with broader educational backgrounds and
work experience than were traditionally hired.

       As set forth in the memorandum, the new procedures required
section chiefs to obtain approval from their supervising DAAG to
announce an attorney position. The Division’s Human Resources Office
would then announce the position publicly and also distribute it to
minority bar associations (among other groups). Upon receipt of
applications, the Human Resources Office would review and forward to
the front office the applications of those candidates who met the
minimum educational and professional qualifications as specified in the
position announcement. Under the new procedures, the DAAGs had the
responsibility for reviewing the applications and identifying applicants for



                                    11
the section chief to interview. In addition, the DAAGs were instructed to
forward copies of the applications for all of the applicants to the section
chiefs.

       The section chiefs’ responsibilities, according to the new process,
were to interview the candidates identified by the front office and to
identify and interview other applicants they believed should be
considered. After conducting interviews, the section chiefs were to
provide a list to the DAAG with hiring recommendations. The list was to
include individual written recommendations, addressed to the AAG,
discussing the recommended applicants’ backgrounds, qualifications,
credentials, and references. The DAAGs were required to send both the
section chief’s recommendations and their recommendations (if different)
to the AAG for review and approval. After obtaining AAG approval to hire
an attorney applicant, the section chief would work with the Human
Resources Office to determine the appropriate salary and make a
tentative offer of employment (contingent on satisfactory completion of a
background investigation).

       Acosta told us that in 2003, when he served as AAG, he delegated
hiring authority to Principal DAAG Bradshaw, which was a role often
assigned to the Principal DAAG. Bradshaw, in turn, said he authorized
Schlozman, who was a DAAG at the time, to handle most of the
Division’s hiring, although Bradshaw said he retained final authority.
Bradshaw said Schlozman was very interested in hiring issues and was
willing to put the time required into the assignment. Bradshaw also said
that, during this period, he reviewed Schlozman’s hiring
recommendations, inquired about the recommendations of the section
chiefs, and reviewed résumés for prior work experience and law school
performance.

      On December 1, 2003, AAG Acosta issued a memorandum revising
the February 2002 hiring procedures. Acosta told us his main concern
was ensuring that the hiring process moved forward expeditiously.
Acosta’s modification added the requirement that DAAGs obtain the
concurrence of the Principal DAAG before sending the initial list of
applicants to the section chief for interviews. Applicants sent to the
sections by the DAAGs were expected to be interviewed by the section
chiefs (and other personnel in the sections) within 2 weeks of their
names being sent to the sections. In addition, section chiefs were only
permitted to review applications in the Human Resources Office, which
represented a change from long-standing Division practice. Section
chiefs could not obtain their own copies of attorneys’ applications.
Acosta’s memorandum also required the Principal DAAG to review the
recommendations from the section chiefs and DAAGs before seeking
approval to hire from the AAG, thus ensuring that Bradshaw, to whom


                                    12
Acosta had delegated hiring authority, was not bypassed. Finally, the
Acosta memorandum emphasized that consistency in setting starting
salary levels was important and that only the Human Resources Office
was authorized to discuss salary levels with prospective employees.

      C.    Memorandum on Personnel Practices: June 2007

      In the wake of substantial media attention regarding allegations of
questionable hiring practices within the Civil Rights Division, AAG Wan
Kim issued a memorandum dated June 29, 2007, in which he stated
that he was

      fully committed to ensuring that all personnel decisions
      within the Civil Rights Division are consistent with principles
      of fairness as well as all applicable laws, rules and
      regulations . . . . Consistent with applicable law,
      Department policies and my own practice, there will be no
      discrimination based on color, race, religion, national origin,
      political affiliation, marital status, disability, age, sex, sexual
      orientation, status as a parent, membership or non-
      membership in an employee organization, or personal
      favoritism.
The memorandum, posted on the Division’s Intranet site, also referred to
the personnel practices prohibited by 5 U.S.C. § 2302, the law that
prescribes merit system principles in government employment. Kim’s
memorandum did not make any specific changes to the hiring
procedures developed by previous AAGs.




                                      13
                    CHAPTER THREE:
            ATTORNEY PERSONNEL DECISIONS:
       HIRING, TRANSFERS, CASE ASSIGNMENTS, AND
           OTHER PERSONNEL ACTIONS WITHIN
                THE CIVIL RIGHTS DIVISION
      In this section, we describe the evidence as to whether political or
ideological affiliations were considered in attorney hiring and other
personnel actions in the Civil Rights Division. We did not find evidence
that political or ideological affiliations affected personnel decisions in the
sections of the Division that were overseen by Deputy Assistant
Attorneys General other than Bradley Schlozman. The career section
chiefs of the Educational Opportunities Section, the Housing and Civil
Enforcement Section, and the Disability Rights Section, which were not
overseen by Schlozman, said the hiring of experienced attorneys in their
sections was not affected by political or ideological affiliations, and the
evidence in our investigation supported their statements. Career section
managers and attorneys in these sections had greater roles in the
process for hiring experienced attorneys. In addition, these section
chiefs did not encounter any political interference from the Civil Rights
Division’s front office in other attorney personnel matters.

       In contrast, we found that Schlozman inappropriately considered
political and ideological affiliations in hiring experienced attorneys in the
sections he supervised and entry-level attorneys throughout the Division
for the Attorney General’s Honors Program. 6 We also found that
Schlozman considered political and ideological affiliations in transferring
and assigning cases to career attorneys in the sections he supervised.
Numerous Division employees said that shortly after Schlozman became
a DAAG in 2003, he became deeply involved in attorney personnel
matters for the five sections he supervised – the Special Litigation
Section, the Employment Litigation Section, the Voting Section, the
Criminal Section, and the Appellate Section. Several section chiefs
supervised by Schlozman told us that Schlozman controlled hiring for
career attorney positions, monitored case assignments, and directed
section chiefs to assign important cases to attorneys he identified. Other
officials in the Division said that Schlozman’s responsibility for and
influence over personnel matters expanded over time. For example,

       6 The Attorney General’s Honors Program is the means by which the
Department hires recent law school graduates and judicial law clerks who do not have
prior experience practicing law. The litigating divisions of the Department and several
other components participate in the Honors Program hiring process, which is overseen
by the Department’s Office of Attorney Recruitment and Management (OARM).




                                          14
several Division employees told us that Schlozman was assigned a
significant role in screening, interviewing, and selecting Honors Program
attorneys in 2003 and 2004. In 2005 Schlozman became the Acting
Assistant Attorney General, and in that capacity he ordered three
Appellate Section attorneys transferred to other sections in the Division
based on improper considerations. According to many people we
interviewed, throughout his tenure in the Division Schlozman considered
political and ideological affiliations in hiring career attorneys and in other
personnel actions such as attorney transfers and cases assignments.

       The following sections discuss the evidence regarding the use of
political considerations by Schlozman in the hiring, transfers, and case
assignments of Civil Rights Division attorneys.


I.   Hiring

       We found that Schlozman inappropriately considered political and
ideological affiliations in hiring career attorneys. Based on the results of
our interviews of Civil Rights Division section chiefs and many other
attorneys in the Division, we learned that Schlozman favored applicants
with conservative political or ideological affiliations and disfavored
applicants with civil rights or human rights experience whom he considered
to be overly liberal. In addition, he prevented many career section chiefs
from reviewing résumés of the complete applicant pool, and he only
provided to them résumés of applicants he interviewed. Five of the six
section chiefs whom Schlozman supervised while DAAG, from May 2003 to
June 2005, told us that Schlozman further minimized their roles in the
hiring process by providing little advance notice of applicant interviews,
discouraging their asking questions during the interviews, and ignoring
their assessments and recommendations regarding attorney applicants.

       Several Division attorneys told us that Schlozman expressed
disdain for the career attorneys in the Division, believing them to be
mostly liberal and Democrats. According to several of these attorneys,
Schlozman expressed a desire to hire “real Americans” into the Division,
a term that many people told us Schlozman used when referring to
political conservatives. Several Division attorneys and officials said that
Schlozman made statements to them about his hiring conservatives or
Republicans into the Division. During his testimony before the Senate
Judiciary Committee on June 5, 2007, Schlozman admitted that that he
“probably ha[s] made statements like that.” We also found that prior to
his testimony, Schlozman admitted to a section chief that he had made
mistakes by “consider[ing] politics.”

      The following sections provide evidence supporting these findings.



                                     15
       A.     Schlozman’s Role in the Hiring Process

       Former AAG Acosta and former Principal DAAG Bradshaw told us
that Schlozman had a lead role in hiring for the Division from mid-2003
to early 2006, particularly in the sections he supervised: Special
Litigation, Employment Litigation, Voting, Criminal, and Appellate. 7
Others in the Division told us that Schlozman conducted the hiring
process with little supervision. For example, the Chief of the Special
Litigation Section, Shanetta Cutlar, said that Acosta once told her that
Bradshaw and Schlozman were in charge of hiring. Bradshaw told us
that while he had to approve all hiring decisions, he relied heavily on
Schlozman to run the process. When Schlozman became Acting AAG in
June 2005, he maintained his active role in the hiring of Division
attorneys.

      The section chiefs supervised by Schlozman told us that he
controlled hiring for their sections. Special Litigation Section Chief
Cutlar, Employment Litigation Section Chief David Palmer, Criminal
Section Chief Mark Kappelhoff, former Criminal Section Chief Albert
Moskowitz, and former Voting Section Chief Joseph Rich said that they
were not provided access to the résumés of all applicants who had
applied for attorney positions in their sections; instead, the résumés were
screened exclusively by Schlozman.

       Cutlar said that on several occasions she asked Schlozman for all
of the applicant résumés but he refused to provide them to her. Cutlar
said that she once contacted the Division’s Human Resources Office to
request copies of the résumés for all the applicants to the section, but
was told that she could not have them without the permission of the
front office. Cutlar said she never received them.

       Employment Litigation Section Chief Palmer said that he
complained to Schlozman that the hiring procedures for attorney
positions in his section differed from the procedures followed in other
sections where, for example, the section chiefs were able to review
résumés of all applicants to the section. Schlozman responded by telling
Palmer that he was “entirely comfortable with our hiring procedures and
the process will remain as it is.”

      Cutlar said that the applicants whose résumés she reviewed after
they had been culled from the applicant pool by Schlozman or others in

       7 According to Appellate Section Chief Diana Flynn, Schlozman did not formally
supervise the Appellate Section until he became Acting AAG in June 2005. However,
former Principal DAAG Bradshaw said that he delegated to Schlozman an active role in
the hiring for and management of the Appellate Section.




                                         16
the front office typically reflected membership in conservative
organizations. She also said the most striking thing she noticed about
the résumés was that the applicants generally lacked relevant
experience. She said Schlozman minimized the importance of prior civil
rights or human rights work experience. On that subject, Schlozman
told Cutlar on one occasion, in the context of the hiring of volunteer
interns in the Division, that relevant experience was not always a plus.
In a voice mail to Cutlar in February 2006, Schlozman stated:

       [W]hen we start asking about, “what is your commitment to
       civil rights?” . . . . [H]ow do you prove that? Usually by
       membership in some crazy liberal organization or by some
       participation in some crazy cause. . . . Look, look at my
       résumé – I didn’t have any demonstrated commitment, but I
       care about the issues. So, I mean, I just want to make sure
       we don’t start confining ourselves to, you know, politburo
       members because they happen to be a member of some, you
       know, psychopathic left-wing organization designed to
       overthrow the government.

       Former Criminal Section Chief Moskowitz also said the candidates
for career positions chosen by Schlozman had conservative political or
ideological affiliations and rarely had any civil rights background, rarely
expressed any interest in civil rights enforcement, and had very little or
no federal criminal experience. 8

       Other witnesses told us and e-mails confirmed that Schlozman
actively recruited applicants who were members of the Federalist Society.
In 2004, Schlozman told Division officials and attorneys that he attended
Federalist Society events, such as a student symposium and a law
student picnic, to recruit applicants. In an e-mail to several Division
front office personnel on February 18, 2004, Schlozman wrote about the
symposium, “If we get a speaking role, it might be useful to spread the
word and get more applications from these fine young americans.”

       Section Chiefs Cutlar, Palmer, Kappelhoff, Rich, and Moskowitz
also stated that all interviews of attorney applicants for their sections
were conducted by Schlozman. They explained that when they were
included in the interviewing process, they received an invitation to attend
from Schlozman, usually on short notice. Rich said he had very little
participation in the interviews other than to describe the work of the

       8 Moskowitz served as Criminal Section Chief from 1999 until 2005, when AAG

Kim reassigned him to a newly created training position. Mark Kappelhoff, who had
previously served as a Deputy Section Chief before leaving the Department, returned to
replace Moskowitz as the Section Chief.



                                          17
section. Cutlar said that when she tried to ask questions at interviews
Schlozman sometimes waved his hand dismissively at her and told her
that she did not need to ask that question. In 2003, Cutlar complained
to Schlozman that she was being cut out of the interview process
entirely, and she requested that she be included in interviews, arguing in
an e-mail that her lack of involvement in the final interview would
adversely affect the work of the section she supervised. Schlozman
responded: “I will think about it, but I make no promises. My position is
that long-term hires are the prerogative of the leadership.”

      According to Cutlar, Schlozman made the decision whether an
applicant should be hired, often without soliciting any input from her
about her impressions of the applicant. Cutlar said, for example, that by
the time she returned to her office after an interview she often had
received an e-mail from Schlozman directing the Division Human
Resources Office to extend an employment offer to the applicant.

        Cutlar said she vehemently objected to some of the candidates
interviewed for the Special Litigation Section because she did not believe
they were qualified, but said she was routinely overruled by Schlozman.
For example, Cutlar said she objected to hiring a candidate who was the
girlfriend of an attorney hired in the Division’s Educational Opportunities
Section because the applicant was unqualified. The applicant, who was
working as a contract paralegal at a law firm, was a member of both the
Federalist Society and the Republican National Lawyers Association.
Cutlar said she also noted a discrepancy in dates on the applicant’s
résumé – specifically that during the period the applicant claimed to have
been self-employed practicing law, she was not admitted to any state bar.
When Cutlar sought an explanation from the applicant during the
interview, Schlozman told her to “let it go.” Cutlar argued with
Schlozman after the interview that the candidate had not been truthful
and should not be hired. By the time she returned to her office, however,
Cutlar had received an e-mail from Schlozman informing her that he was
hiring the applicant. 9

      In another example, Cutlar said she objected to two candidates on
the grounds that they were too inexperienced to work in her section.
However, Schlozman said the two could serve as “junior attorneys” in the
section, a position Cutlar said did not exist. One candidate was the
niece of a former agency head in the Bush administration, while the
other was a personal friend of a Counsel to Paul McNulty when he served
as the U.S. Attorney for the Eastern District of Virginia. The Counsel

        9 The applicant resigned her position at the Department before the end of her

first year when faced with possible termination for poor performance.




                                          18
described the applicant as a “solid conservative” in his referral e-mail to
Principal DAAG Wiggins. 10

      Former Voting Section Chief Rich said there were occasions when
he attended interviews, but he was never asked by Schlozman for his
opinion of the applicant or for his recommendation of whether the
applicant should be hired. Moskowitz said he had no meaningful role in
the hiring decision process, and Kappelhoff said new attorneys
sometimes just appeared on the section roster without explanation. He
said they had been hired by the front office without him knowing about it
and without him having any participation in the process.

       Employment Litigation Section Chief Palmer said that he objected
to offering positions to several applicants Schlozman wanted to hire, but
the applicants met “minimal” qualification standards and were hired.
However, in an e-mail dated November 2, 2005, Palmer expressed his
reservations to Schlozman about an applicant Schlozman planned to
hire. The applicant had been fired from a previous job. Palmer wrote: “I
am lukewarm at best about this, Brad. He mentioned nothing during
our interview about being fired from a job. I certainly would have liked to
ask him about this during our interview.” Schlozman responded, “I
support his hiring. Please let [Human Resources] know. Thx.” 11

       In contrast to what the other section chiefs told us, former Voting
Section Chief John Tanner told us he was a full participant in the hiring
process for attorney positions in the Voting Section after he became
section chief. 12 Tanner said that he, Schlozman, and Hans von
Spakovsky (who was Counsel to the Civil Rights Division AAG) each
reviewed résumés, made recommendations for applicants to be
interviewed, and conducted interviews. He said when the Voting Section
was hiring for a number of positions, he conducted pre-interviews to
narrow the number of candidates interviewed by the front office. Tanner
asserted that the hiring decisions in the Voting Section were mainly
made on a consensus basis and that Schlozman solicited his views about

       10 The Counsel’s e-mail to Wiggins stated that the candidate “is a solid
conservative but would be willing to work in [Civil Rights]. I think the criminal section
might be best. I’m not sure if any of the other sections would tolerate her.”
       11 Palmer said that there were some instances in which applicants were not

hired after he objected, but he could not recall the names of any such applicants.
       12 Tanner, who had previously worked in the Voting Section from 1979 to 1995
and returned to the Voting Section in 2002 as a Special Litigation Counsel, became
Section Chief in June 2005, after Rich retired from the position. Tanner stepped down
as the Section Chief in January 2008, and was detailed to the Division’s Office of
Special Counsel, after comments he made during a speech about African American
voters created a public controversy.




                                           19
applicants and took his opinions into account. Tanner said there were
candidates he did not like and that they were not hired. According to
Tanner, attorney candidates were not screened for political affiliations.
He said neither politics nor political affiliations were mentioned during
interviews and there were no political litmus tests. Tanner also
contrasted the hiring process with previous administrations’ practices,
where he said there was a virtual “ban on conservatives” and applicants
were subjected to the litmus test of whether they were a “civil rights
person.”

       Palmer, like Tanner, told us that he did not agree that there was a
concerted effort to hire conservatives for career attorney positions in the
Division. Palmer said it was his impression that Schlozman wanted to
“broaden the pool” of applicants from what it had been prior to the
Republican administration. According to Palmer, previously applicants
were drawn from five major law schools, including Harvard and Yale, and
the applicants typically had similar internship experiences. Palmer said
that the Division had not recruited from or considered applicants from
second and third tier law schools and had not recruited people with
backgrounds in insurance or employment defense work. He said that
Schlozman sought to find qualified attorneys from a broader pool.
Palmer added that Schlozman did not instruct him to look for attorneys
with conservative or Republican affiliations. He asserted that Schlozman
was more concerned about hiring people who would not leak information
to the media or undermine the Division’s policies. Palmer said he was
unaware of whether attorneys hired by Schlozman were generally more
conservative. He noted, however, that many more members of the
Federalist Society applied to the Division after the change in
administration.

       B.      Additional Evidence and E-mails

       Notwithstanding Tanner and Palmer’s statements, accounts from
several other witnesses provide additional evidence that political and
ideological affiliations were factors in Schlozman’s hiring decisions
throughout his tenure in the Division. An Appellate Section attorney
whom Schlozman had recommended be hired into the Honors Program in
the fall of 2004 told us that Schlozman told him that he was hoping to
free up some slots in the Appellate Section for “good Americans.”

      Several attorneys in the Division also told us that Schlozman was
open about his disdain for and lack of trust in the attorney staff of the
Division. 13 Appellate Section Chief Diana Flynn told us that in

       13  For example, in an e-mail on July 15, 2003, to a former colleague, Schlozman
wrote, “I too get to work with mold spores, but here in Civil Rights, we call them Voting
                                                                                    (Cont.)


                                           20
conversations with her, Schlozman alternately referred to the Appellate
Section lawyers hired during prior administrations as “Democrats” and
“liberals,” and said they were “disloyal,” could not be trusted, and were
not “on the team.” Flynn said Schlozman pledged to move as many of
them out of the Division as he could to make room for the “real
Americans” and “right-thinking Americans” he wanted to hire.

       Accounts from numerous other Division employees and officials,
including former AAG Wan Kim and Section Chiefs Cutlar and Flynn, as
well as the context of Schlozman’s e-mails, indicate that his use of terms
such as “real American,” “right-thinking American,” being “on the team,”
and similar terms were Schlozman’s way of referring to politically
conservative applicants and attorneys. For example, an e-mail dated
July 17, 2006, from Schlozman to Monica Goodling, who at the time was
Senior Counsel to the Attorney General and White House Liaison, sheds
light on the meaning of Schlozman’s terms. In that e-mail, Schlozman
recommended a friend who had interviewed with Goodling for a political
position. Schlozman wrote, “I can assure you that [the applicant] is a
good American. [The applicant] and Sheldon Bradshaw and I (and [one]
other person) made up a four-member Vast Right-Wing Conspiracy at my
former law firm.” In another e-mail sent to Goodling on December 4,
2006, in which Schlozman recommended a different friend for an
Immigration Judge position, Schlozman wrote, “[D]on’t be dissuaded by
his ACLU work on voting matters from years ago. This is a very different
man, and particularly on immigration issues, he is a true member of the
team.” 14




Section attorneys.” As part of the same e-mail exchange, on July 16, 2003, Schlozman
wrote, “My tentative plans are to gerrymander all of those crazy libs rights out of the
section.” In addition, while interim U.S. Attorney in the Western District of Missouri,
Schlozman wrote an e-mail to a friend, dated June 15, 2006, contrasting his job as
U.S. Attorney with his position in the Civil Rights Division. He wrote:

       It has been months since I felt the need to scream with a blood-curdling
       cry at some commie, partisan subordinate (i.e., most of the [Voting]
       section staff until recently). And I feel like the people I now work with are
       all complete professionals. What a weird change. Granted, these
       changes are nice in many respects, but bitchslapping a bunch of
       [Division] attorneys really did get the blood pumping and was even
       enjoyable once in a while. I think now it’s all Good Cop for folks there. I
       much preferred the role of Bad Cop. . . . But perhaps the Division will
       name an award for me or something. How about the Brad Schlozman
       Award for Most Effectively Breaking the Will of Liberal Partisan
       Bureaucrats. I would be happy to come back for the awards ceremony.
       14   “ACLU” refers to the American Civil Liberties Union.




                                            21
       A May 9, 2003, e-mail provides additional evidence of the meaning
of Schlozman’s phrases. Luis Reyes, then Counsel to the AAG for the
Civil Division, sent an e-mail to Schlozman in connection with a legal
matter, endorsing an attorney in the Department’s Office of Legal Policy
as a “right thinking american to say the least.” In an e-mail response,
Schlozman wrote that he “just spoke with [the attorney] to verify his
political leanings and it is clear he is a member of the team.” 15

       Former AAG Kim said he recalled an instance while he was still a
DAAG when a concern about improper hiring considerations by
Schlozman was brought to his attention. Kim said that in about March
2004 he had received a telephone call “out of the blue” from Andrew
Lelling, who at the time was an Assistant U.S. Attorney in the Eastern
District of Virginia. Lelling had previously worked in the Civil Rights
Division front office as Counsel to AAG Boyd. Kim was not acquainted
with Lelling, but knew of his prior association with the Division. Kim
said the call was memorable. He said that Lelling told him of a telephone
conversation Lelling had just had with Schlozman. According to Kim,
Lelling said, “I want to call you because I just spoke with Brad
[Schlozman] recently and something that he said bothered me.” Lelling
told Kim that he had called Schlozman to recommend a colleague at the
U.S. Attorney’s Office who was interested in a position in the Criminal
Section of the Civil Rights Division. Lelling told Kim that Schlozman had
asked Lelling, “Well, is this guy conservative?” or something to that
effect. Lelling said he had replied, “I don’t know. I don’t think so. I’m
not sure,” and Schlozman told him, “Then he probably won’t be hired.”

       Kim said he recalled that Lelling next said, “I don’t agree with that.
I just wanted to call you, I don’t want to go around Schlozman, I don’t
want him to think I’m going around his back, but I just don’t think that’s
fair.” Kim told us that at the time he thought, “This is crazy.” Kim said
he told Lelling he agreed with him. Kim also suggested to Lelling that he
tell his colleague to provide his application information to Kim when he


       15   In contrast to this evidence, as a follow-up to his June 5, 2007, testimony
before the Senate Judiciary Committee, Schlozman supplied a written answer to a
question posed by Senator Kennedy asking what Schlozman meant by the term “good
American.” Schlozman wrote “I frequently use the term ‘Great American.’ I use the
phrase casually as a term of endearment. Indeed, anyone who knows me well knows
that I refer to Democratic and Republican friends/colleagues alike as ‘great
Americans.’ ” Former Principal DAAG Bradshaw and former Voting Section Chief
Tanner also told us that they did not consider Schlozman to be attaching political or
ideological meaning to such terms. Bradshaw and Tanner maintained that the terms
“good American” and “fine American” were ideologically neutral, meaning simply that
the person was a hard worker or a “good guy.” Tanner said that the terms were used
simply as terms of endearment.



                                           22
applied for the position, and Kim said he would make sure he gets a “fair
shake.” 16

       Kim told us Lelling’s call bothered him because he was not sure
whether Schlozman “was applying the right kind of criteria” to hiring
decisions. Within a week of speaking to Lelling, Kim said he brought the
subject up in a conversation with Schlozman. Kim told us that he made
clear to Schlozman that it would be unlawful and impermissible to make
hiring decisions based on political affiliations. Kim said he “basically
parrot[ed] to Schlozman the requirements of the CSRA,” referring to the
Civil Service Reform Act. Kim said that Schlozman reacted with what Kim
described as “a double-take with his head.” Kim said he followed up by
adding that the statute is enforced by the Office of Special Counsel, and
Scott Bloch, the Special Counsel, whom he knew to be a friend of
Schlozman. Kim said that Schlozman looked at Kim and said, “You
know, I don’t do that.” 17

       Further evidence that Schlozman considered political factors in
hiring is found in other e-mails. For example, in November 2003, when a
Department attorney forwarded to Schlozman the résumé of a recent law
school graduate who was clerking for a federal judge and was interested
in a position at the Department, Schlozman forwarded the résumé to a
Counsel in the front office of the Civil Rights Division, commenting that
“this has lib written all over it. let’s discuss[.]” 18

      On November 13, 2003, Principal DAAG Wiggins forwarded an
e-mail to Schlozman containing a magistrate judge’s recommendation of
his law clerk for a position in the Division. The magistrate judge
described his clerk as “a very able lawyer” who would be “a good addition
to your staff.” Wiggins noted to Schlozman, “We need to hire this guy[.]”
In a one-word e-mail reply to Wiggins, Schlozman asked: “conservative?”



        16 Kim said he spoke to Lelling again a few weeks later and learned that his

colleague had decided not to apply for a position in the Civil Rights Division. When we
interviewed that individual, he said he had no knowledge of Lelling’s concerns or the
conversation with Kim.
       17 When we interviewed Lelling, now an Assistant U.S. Attorney in Boston, he

said he did not recall speaking with Schlozman. He said he did recall contacting Kim to
discuss his colleague’s suitability for a position in the Division. Lelling said he knew of
Schlozman’s reputation for being very conservative and called Kim instead because he
did not believe that Schlozman would be fair in assessing his colleague’s credentials.
       18  The applicant’s résumé showed prior employment for three Democratic
Members of Congress, as well as positions in the Department of Education and the Office
of Justice Programs during the Clinton administration. The applicant was not hired.




                                            23
      In another e-mail to a Division front office Counsel dated
January 12, 2004, Schlozman inquired about an attorney being referred
as a candidate for a career civil service position by asking, “how does he
view the world, if you know what I mean?” In the e-mail, Schlozman
added, “(and for God’s sake, don’t forward this email!).”

        In a January 30, 2004, e-mail to Kim, Schlozman declined an
invitation to join Kim for lunch, noting, “Unfortunately I have an
interview at 1 with some lefty who we’ll never hire but I’m extending a
courtesy interview as a favor.” In another e-mail, dated March 5, 2004,
Schlozman wrote to a front office Counsel that a Criminal Section deputy
“has recommended several other commies for permanent positions in
[the section]. [Criminal Section Chief Moskowitz] probably would concur
with his recommendations. But as long as I’m here, adherents of Mao’s
little red book need not apply.”

      Schlozman wrote an e-mail to Kim, dated March 15, 2004, that
stated:

       We need to start thinking about [Criminal Section] lateral
       hires. I fear that [Moskowitz] and his minions will be sorting
       through the résumés looking for [name of attorney] clones
       who are big libs and would enforce certain of our statutes
       only with great reluctance. In talking to Alex, he is of the
       view (as am I) that our new folks should be individuals with
       a background in, or genuine commitment to prosecuting
       trafficking cases. Also, any candidate must profess his/her
       willingness to zealously prosecute both death penalty and
       PBA cases. I strongly suspect that we have plenty of former
       prosecutors in the batch, so I would prefer not to see a
       bunch of public defenders that think like Al. Thoughts?

       Also on March 15, 2004, Schlozman wrote an e-mail expressing his
uncertainty to a Division attorney about whether an applicant for the
Division’s Special Litigation Section was conservative because she had
interned at the American Civil Liberties Union (ACLU). 19 When contacted
for this investigation, the applicant told us that Schlozman had called
her and questioned her about her internship and asked whether she was
a member of the ACLU. She assured him that she was not a member
and that she had interned with the ACLU to learn about constitutional
law. According to Special Litigation Section Chief Cutlar, Schlozman
considered not hiring the applicant when he thought she was a member

       19In the March 15, 2004, e-mail from Schlozman to a Division attorney,
Schlozman also wrote, “if [the applicant] is so conservative, how is it that she was a
member of the ACLU in Tennessee during law school?”



                                           24
of the ACLU. Cutlar said Schlozman hired the applicant, even though
Cutlar had objected for other reasons, once Schlozman was satisfied that
the applicant was not an ACLU member.

      In an e-mail dated May 27, 2005, Employment Litigation Section
Chief Palmer asked Schlozman whether he was aware that a new Honors
Program attorney assigned to the section had worked for the Lawyer’s
Committee for Civil Rights. Schlozman responded to Palmer that he
“kn[e]w all about him. He will be okay. (He worked as intern in [W[hite]
H[ouse] Counsel’s Office.) But he was forced on us anyway and got the
nod over my objection. Still, I expect you to monitor him very, very
carefully.”

      C.    Schlozman’s Statements

       According to Special Litigation Section Chief Cutlar, in
approximately March 2007, Schlozman admitted to her that he had
“considered politics” in hiring career attorneys. In March 2007,
Schlozman had returned to Washington to work at the Executive Office
for United States Attorneys (EOUSA) after serving as interim
U.S. Attorney for the Western District of Missouri for about 1 year. At
the time, there were media reports regarding allegations of political
considerations affecting personnel decisions at the Department. During
this period, Schlozman unexpectedly visited Cutlar in her office. Cutlar
said Schlozman discussed with her the allegations of partisan hiring in
the Division. According to Cutlar, Schlozman said, “You know, I was
thinking I probably made some mistakes . . . . I probably considered
politics when I shouldn’t have.” Cutlar stated that later in the same
conversation Schlozman said, “Well, I’m just saying I got caught up in
the group mentality. You know how it is.” Cutlar said that Schlozman
concluded this conversation by again admitting, “Maybe I’ve made some
mistakes. Maybe I considered politics when I shouldn’t have.”

      In a subsequent telephone conversation with Cutlar during the
same time frame, however, Schlozman retreated from his admissions
about his consideration of politics in hiring. Cutlar said that in this
follow-up conversation Schlozman told her, “You know I didn’t do
anything wrong.” Cutlar said Schlozman repeated several times that he
wanted her to know and remember that he considered her to be “a close
and personal friend.”

     When he testified before the Senate Judiciary Committee on
June 5, 2007, Schlozman admitted that he had boasted about hiring




                                   25
Republicans and conservatives in the Civil Rights Division. 20 We also
found that Schlozman made statements boasting to others about using
political and ideological affiliations in hiring for career Civil Rights
attorney positions. One example is an e-mail dated January 6, 2004,
from Schlozman to an attorney hired by Schlozman in the Division.
Shortly after being hired, the attorney sent an e-mail to Schlozman
expressing his happiness in the Special Litigation Section, noting that his
“office is even next to a Federalist Society member.” Schlozman replied
by e-mail, “Just between you and me, we hired another member of ‘the
team’ yesterday. And still another ideological comrade will be starting in
one month. So we are making progress.”

      Former AAG Kim told us of Schlozman’s statements regarding
Division attorneys who attended Federalist Society meetings. Kim said
that when Schlozman returned from Federalist Society meetings or
events, he commented that there were now Civil Rights Division
attorneys at the meetings when there never had been before.
Employment Litigation Section Chief Palmer told us that he heard
Schlozman express pleasure about his bringing “RTAs,” meaning “right-
thinking Americans,” and Republicans into the Division. Palmer added,
“I don’t want to say that [Schlozman] had a preference, but [he] liked
hiring conservatives.” Andrew Lelling, former front office Counsel to AAG
Boyd, told us that Schlozman “was always very unapologetically clear
about the kind of people he wanted hired into the Department . . . . [H]e
want[ed] people in the Department who [were] conservative on the legal
issues, maybe conservative period.”

       An applicant Schlozman recruited for a career attorney position in
the Division said Schlozman told him that there were too many liberal,
Democratic trial attorneys in the Voting Section and that he was trying to
“remedy” the situation by identifying conservative applicants and
selecting them outside the official application process.

       D.     Hiring in Civil Rights Division Sections Not Supervised
              by Schlozman

       By contrast, according to the chiefs of Division sections not
supervised by Schlozman – Educational Opportunities, Housing and Civil
Enforcement, and Disability Rights – hiring of experienced attorneys in
their sections was not affected by consideration of political or ideological

      20 Senator Schumer: Did you ever boast to anyone that you hired a certain

number of Republicans or conservatives for any division or section at the Justice
Department?
       Mr. Schlozman: I mean, I probably have made statements like that.




                                         26
affiliations. 21 These section chiefs told us that their supervising Deputy
Assistant Attorneys General allowed them and other career section
managers and attorneys to participate meaningfully in the process for
hiring experienced attorneys for their sections. 22 In these sections, the
career managers and attorneys reviewed résumés of all applicants,
recommended applicants for interviews, conducted interviews
independent of front office personnel, and made hiring recommendations
to the front office. The section chiefs said that experienced attorneys
hired for these sections were recommended by the sections and approved
by the front office, and applicants were not hired over the objection of
section managers. We did not find evidence that political or ideological
affiliations were factors in the hiring for these sections.

       For example, Educational Opportunities Section Chief Jeremiah
Glassman told us that he had access to the résumés of all applicants and
he, with assistance from other attorneys in the section, picked the
candidates to interview. Glassman said that while on occasion the front
office identified a candidate to be interviewed, all of the experienced
attorneys hired were the choice of the section staff.

       According to Housing Section Chief Steven Rosenbaum, the front
office reviewed résumés of applicants for his section and sent him a list
of applicants that would be interviewed. However, Rosenbaum said he
and other section attorneys added applicants to that list based upon a
review of all the résumés. He said that the front office conducted the
first round of interviews of all applicants, while the second round was
conducted jointly by Rosenbaum and front office staff, sometimes
including Schlozman. Subsequent interviews were conducted by section
attorneys. According to Rosenbaum, at least two and possibly all three
of the experienced attorneys hired for the section were favorably
recommended by the section after they interviewed with section
attorneys.



       21  Schlozman did not have a formal role in supervising the Appellate Section
until he became the Acting AAG in June 2005. After that, he took a very active role in
managing the Appellate Section. Even after becoming Acting AAG, however, Schlozman
did not become involved to any significant extent in the management of the Educational
Opportunities, Housing and Civil Enforcement, and Disability Rights Sections.
       22  The sections that were not supervised by Schlozman had autonomy in hiring
experienced attorneys. However, because Schlozman oversaw the Honors Program
hiring for all of the Civil Rights Division during 2003 and 2004, the section chiefs said
Schlozman selected the entry-level attorneys hired for career positions through that
program, regardless of the section to which they were assigned. We discuss the Civil
Rights Division’s Honors Program hiring in the next section of this report.




                                           27
       Disability Rights Section Chief John Wodatch said that the section
was largely successful in having its hiring choices approved by the front
office. He told us he had recommended to the front office all five of the
experienced attorneys hired during the period we reviewed, two of whom
had previously worked in the section and two others who were referred
by a section deputy.

       E.     Honors Program and Summer Law Intern Program Hiring

       The Attorney General’s Honors Program is the means by which the
Department hires recent law school graduates and judicial law clerks
who do not have prior experience practicing law. The litigating divisions
of the Department and several other components participate in the
Honors Program hiring process, which is overseen by the Department’s
Office of Attorney Recruitment and Management (OARM) and occurs in
the fall of each year. The Summer Law Intern Program (SLIP) is the
Department’s hiring program for paid summer interns and is also
overseen by OARM.

       The OIG and OPR conducted a joint investigation into whether
political and ideological affiliations of applicants were improperly
considered in making selections for the Honors Program and SLIP from
2002 to 2006. 23 In the course of that investigation, several Civil Rights
Division officials and attorneys told us that Schlozman had a significant
role in screening, interviewing, and selecting Honors Program and SLIP
attorneys in 2003 and 2004. For example, former AAG Acosta said that
Schlozman was “the point person on the Honors Program” throughout
Acosta’s tenure as AAG. Two Division front office Counsel were also
significantly involved in Honors Program and SLIP hiring during that
time period.

        Based on our interviews of Civil Rights Division participants in the
Honors Program and SLIP hiring process and the e-mails we reviewed, we
concluded that Schlozman improperly considered political and ideological
affiliations in selecting attorneys for the two programs. In this section,
we describe the evidence that led to this conclusion.


        23 Our separate report on the Honors Program and SLIP hiring contains a

complete description of the programs, the hiring processes, and the manner in which
the various components of the Department participated in the programs. That report
also contains our findings as to whether Department officials from components and
offices other than the Civil Rights Division improperly considered political and
ideological affiliations of applicants in making selections for the Honors Program and
SLIP from 2002 to 2006. See An Investigation of Allegations of Politicized Hiring in the
Department of Justice Honors Program and the Summer Law Intern Program (June 2008),
www.usdoj.gov/oig/special/s0806/final.pdf.



                                          28
        Our investigation of the Honors Program and SLIP hiring process
during the periods before and after Schlozman’s tenure in the Division
uncovered no evidence that political and ideological affiliations were
considered. In 2001, according to an administrator who attended all of
the meetings of the committee that handled Honors Program and SLIP
hiring for the Division, the committee was composed entirely of career
staff. This administrator told us that discussion of the applicants by
committee members focused on their academic qualifications and prior
civil rights experience. She said that political or ideological affiliations
were never discussed in evaluating applicants.

       In 2002, Attorney General Ashcroft changed the Honors Program
and SLIP application process for the entire Department to require greater
involvement by the AAGs and their front office staffs. Robert Driscoll,
AAG Ralph Boyd’s Chief of Staff and a DAAG, was the person in charge of
Honors Program hiring in the Civil Rights Division during 2002. He
reviewed the applications and determined which candidates the Division
would interview. Driscoll said that he evaluated the candidates on the
basis of their academic qualifications and did not take into account
political or ideological affiliations. Driscoll said that during the interview
phase of the selection process, he asked questions designed to find
candidates who would strictly interpret, apply, and enforce the civil
rights laws. Front office Counsel Andrew Lelling also told us he
conducted interviews of Honors Program applicants in 2002 and that
politics was not a consideration in evaluating candidates. Lelling said he
was looking for applicants who were smart, had good grades, had
provided good writing samples, and wanted to work in the Division.

       By contrast, we found that in 2003 and 2004, political and
ideological affiliations were considered by the Division in the Honors
Program and SLIP hiring process and for screening applications during
the 2005 hiring cycle before Wan Kim became the AAG. Two front office
Counsels, Jason Torchinsky and Matt M. Dummermuth, and Schlozman
were primarily responsible for reviewing applications to determine who to
interview in 2003 and 2004. 24 Most section chiefs told us that
Schlozman excluded them from Honors Program and SLIP interviewing.
Only Voting Section Chief John Tanner, Employment Litigation Section
Chief David Palmer, and Special Litigation Section Chief Shanetta Cutlar
said they participated in the Honors Program process.



       24  Dummermuth was sworn in as interim U.S. Attorney for the Northern District
of Iowa in January 2007. He was nominated for the position by the President in
December 2007.




                                         29
       Dummermuth, one of the front office Counsels who participated in
the screening and interviewing of Honors Program and SLIP applicants
for the Division, said that the hiring committee was “looking for
candidates who would focus on enforcing the law as it stood and not
necessarily pursuing the most creative interpretations of the law as
possible.” He said he thought membership in certain organizations, such
as the American Constitution Society and Americans United for
Separation of Church and State, “would have been associated with more
of an activist approach to law enforcement,” and he would have taken
membership in those organizations as a negative factor. Dummermuth
said that membership in the Federalist Society would have been a
“positive factor” because he knew from personal experience that the
group stood for taking a more “judicious” approach rather than an
activist approach to the law. However, he said he did not have any
knowledge about how Schlozman viewed membership in these
organizations when evaluating candidates. 25

      However, contemporaneous e-mails indicate that Schlozman
considered political or ideological affiliations in the evaluation of these
candidates. For example, in an e-mail to Schlozman on December 19,
2003, Special Litigation Section Chief Cutlar reported that she had
received unfavorable information from a judge she contacted in checking
references for an Honors Program applicant to the Division. Schlozman
responded to Cutlar on the same date:

       Okay, but just remember, Republican judges are generally
       far more demanding of quality, accuracy, and faithful
       adherence to statute and constitutional text than liberals, for
       whom activism and advocacy are the hallmarks of
       acceptability. 26

       Dummermuth told us that in 2004 he gave a list of suggested
interviewees to Principal DAAG Bradshaw. He said Bradshaw later told
him that Schlozman had proposed cutting some applicants from the list
because Schlozman considered them to have “too much of an activist
résumé.” Dummermuth said that based on discussions and
disagreements within the Division’s front office, he interpreted
Schlozman’s comment to mean that the applicants were affiliated with


       25 Torchinsky left the Department in October 2005. He did not respond to our

written request for an interview about the screening criteria he used and his
involvement in the Honors Program and SLIP hiring process.
       26 The Honors Program applicant had clerked for two judges, both appointed by

President George W. Bush.




                                         30
liberal causes. He said, however, that he did not discuss Schlozman’s
comment with either Bradshaw or Schlozman.

      In another e-mail, dated May 27, 2005, Employment Litigation
Section Chief Palmer asked Schlozman if he knew that a recently hired
Honors Program attorney assigned to Palmer’s section had worked for the
Lawyers’ Committee for Civil Rights. Schlozman replied:

      I know all about him. He will be okay. (He worked as intern
      in [the Bush administration’s] W[hite] H[ouse] Counsel’s
      Office.) But he was forced on us anyway and got the nod
      over my objection. Still, I expect you to monitor him very,
      very carefully.

       In an e-mail dated September 9, 2003, Schlozman directed
Torchinsky to contact a member of the Federalist Society “to get direct
referrals from [the member] and other helpful friends so that we know
who to look for.” In an e-mail dated February 18, 2004, from Schlozman
to various front office attorneys, Schlozman inquired whether anyone
was planning to attend an upcoming Federalist Society student meeting
at Vanderbilt University. Schlozman wrote, “If we get a speaking role, it
might be useful to spread the word and get more applications from these
fine young americans.” Schlozman also sent an e-mail directly to
Federalist Society officials, dated June 30, 2004, requesting an invitation
to a summer event. In that e-mail, Schlozman stated that he would like
to “use the event as a way to encourage some Federalist Society student
members to apply to the Department of Justice as part of the Attorney
General’s Honors Program.” We did not find evidence of any similar
outreach efforts to any other organization in our review of Schlozman’s
e-mails.

       The 2005 Honors Program and SLIP hiring process began in the
fall while Schlozman was the Division’s Acting AAG. The screening of
applications to determine who to interview was conducted primarily by
Torchinsky. Kim became the AAG before the interviewing of Honors
Program and SLIP candidates began. A career attorney detailed to the
Division front office to assist with, among other things, Honors Program
and SLIP hiring told us that Kim told her “he wanted the best for his
Honors class . . . he wanted good grades, he wanted participation” in civil
rights, but “other considerations were not to be used.” This attorney said
that by the time Kim made these comments, allegations had surfaced in
the media about improper considerations in Civil Rights Division hiring.
Kim said he told his staff at the beginning of the hiring process for the
Honors Program and SLIP that he wanted “really smart people.
Academic qualifications were number one[;] clerkships were preferable.”



                                    31
      In sum, the evidence showed that Schlozman improperly
considered political and ideological affiliations in screening and selecting
attorneys for the Honors Program and SLIP.

       F.     Statistical Overview of Hiring of Career Attorneys

       In this section we present a statistical overview of the political and
ideological affiliations of the attorneys hired in the Civil Rights Division
from 2003 to 2006, the period of Schlozman’s involvement in the hiring
process. This overview covers both the hiring of experienced attorneys
and the Attorney General’s Honors Program attorneys. Our analysis is
based on data gathered from résumés, application materials, e-mails,
and interviews of Division employees. 27 We believe it further
corroborates our conclusion that Schlozman improperly considered
political and ideological affiliations in hiring attorneys in the Civil Rights
Division.

      As shown in Table 2, a total of 112 career attorneys were hired in
the Division’s 8 main sections from 2003 to 2006. The new hires
accounted for approximately 35 percent of all attorneys in the Division.
For much of that period, Schlozman supervised several of the largest
sections of the Division, and he also oversaw hiring for the entire
Division of entry-level career attorneys through the Honors Program.
Consequently, Schlozman participated in the hiring of 99 of the 112
attorneys. Only 13 attorneys were hired in the Division without
Schlozman’s involvement during his tenure in the Division. Although the
number of career attorneys Schlozman was involved in hiring is much
greater than the number of attorneys he did not participate in hiring,
comparison of the statistics is nonetheless noteworthy.




        27 In compiling this data, we reviewed the applicants’ résumés and application

credentials. We examined whether a hired attorney’s résumé or application listed work
experience with a Republican or Democratic politician or membership in an
organization specifically affiliated with a political party, such as the Republican
National Lawyers Association. We also considered whether an attorney’s application
materials cited membership in or employment by any organization generally considered
to be conservative or liberal. The appendix lists the groups we included in each
category. In several instances we also considered other information provided by the
applicants or their references during the hiring process. For example, we counted as
Republican or conservative applicants whose references stated that they were a
“dependable conservative,” or a “solid conservative,” or had “always shown himself to be
an extremely solid conservative and supporter of the President.” For 40 successful
applicants (approximately 36 percent of the career attorneys hired in the Division from
2003 to 2006), we did not find information to place them in any category, and they are
included in Table 2 as Unknown.




                                          32
Table 2: Political and Ideological Affiliations of Civil Rights Division
                 Attorneys Hired from 2003 to 2006

                                    Schlozman Hires           Non-Schlozman Hires
Republican or conservative               63 (64%)                     4 (31%)
Democrat or liberal                       2 (2%)                      3 (23%)
Unknown                                  34 (34%)                     6 (46%)
Total                                   99 (100%)                   13 (100%)
Source: OIG/OPR review of relevant materials.

        As shown in Table 2, virtually all of the attorneys (97 percent)
hired by Schlozman whose political and ideological affiliations were
evident in the hiring process were Republican or conservative (63 of 65).
Schlozman hired only 2 attorneys who had Democratic or liberal
affiliations. 28 By contrast, when Schlozman was not involved in the
hiring process, the results were more balanced: 4 Republican or
conservative attorneys and 3 Democratic or liberal attorneys were hired.

       Attorneys hired by Schlozman were more than twice as likely to be
Republican or conservative than those attorneys Schlozman was not
involved in hiring (64 percent compared to 31 percent). Moreover, while
only 2 percent of the attorneys hired by Schlozman had Democratic or
liberal affiliations, 23 percent of the attorneys hired without Schlozman’s
involvement listed such affiliations on their résumés.

        G.    Analysis

        In sum, we concluded, based on the results of our investigation,
that Schlozman improperly considered political and ideological
affiliations in the recruitment and hiring of career attorneys in the Civil
Rights Division, and in doing so, he violated Department policy and
federal civil service laws, and committed misconduct.

      We found evidence that Schlozman told others in the Department
about his success in hiring conservatives. In addition, in his testimony
before the Senate Judiciary Committee, Schlozman admitted making
such boasts. Numerous e-mails from Schlozman described above also


        28 Although Schlozman was involved in the hiring process for both of the

Democratic or liberal attorneys counted in Table 2 as “Schlozman Hires,” we found that
those hiring decisions were made by others. In one case, AAG Kim recommended the
attorney be hired for a supervisory position. In the other case, Schlozman stated in an
e-mail to the chief of the section to which the attorney was assigned: “He needs to be
put under a very watchful eye . . . , all of [his work] should be no-brainer crap.”



                                          33
demonstrate that he sought conservative candidates and rejected liberal
ones. Further, Schlozman admitted to Special Litigation Section Chief
Cutlar in March 2007, after allegations of partisan hiring surfaced in the
media: “I probably made some mistakes. . . . I probably considered
politics when I shouldn’t have.” Moreover, a statistical overview of the
political and ideological affiliations of attorneys hired in the Division
during his tenure showed that Schlozman hired far more Republican or
conservative attorneys than Democrats or liberals. At the same time,
political and ideological affiliations did not appear to have been a factor
when attorneys were hired without Schlozman’s involvement.

       Indeed, we found no evidence that the consideration of political or
ideological affiliations affected hiring of experienced attorneys in the
sections of the Division that were not overseen by Schlozman. In those
sections – Educational Opportunities, Housing and Civil Enforcement,
and Disability Rights – section chiefs and line attorneys reviewed
résumés of all applicants, made recommendations of applicants to be
interviewed, conducted interviews, and made hiring recommendations to
the front office. Experienced attorneys hired for these sections were, for
the most part, recommended by the sections and approved by the front
office, and attorneys were not hired over the objection of section
managers.

      In contrast, Schlozman controlled the hiring process and precluded
meaningful input from the career section chiefs in the sections he
supervised and for the Honors Program. Schlozman and the front office
screened applicants’ résumés for those positions, and Schlozman chose
the applicants to be interviewed. Moreover, Schlozman made most
attorney hiring decisions without consulting with and sometimes over the
objections of the section chiefs.

       The evidence showed that in his hiring decisions, Schlozman
considered whether candidates were “real Americans,” “right thinking,”
“solid,” “on the team,” and other similar terms, which we concluded
referred to his consideration of political and ideological affiliations. The
language of the e-mails, and the common understanding of virtually all of
the people we interviewed who heard Schlozman use such terms,
indicated that the terms had a political and ideological meaning.
However, Bradshaw and Tanner maintained that the terms “good
American” and “fine American” were ideologically neutral, meaning
simply that the person was a hard worker or a “good guy,” and Tanner
said that the words were used simply as terms of endearment.
Schlozman’s September 6, 2007, written response to congressional
questions adopted a similar approach. However, we did not find credible
the interpretations offered by Bradshaw and Tanner in our interviews of
them or by Schlozman in his response to the Senate. As discussed


                                    34
above, the plain language of Schlozman’s e-mails and the common
understanding held by most Division attorneys we interviewed about
Schlozman’s use of such terms contradicted Schlozman’s claim.

      The evidence also indicated that Schlozman knew his
consideration of political and ideological affiliations in hiring decisions
was improper. According to then-DAAG Kim, he warned Schlozman in
approximately March 2004 that considering politics in hiring for career
attorney positions violated the Civil Service Reform Act. While Schlozman
told Kim he was not doing so, the evidence, both before and after that
conversation, showed that he was doing just that.


II.   Transfers, Case Assignments, and Other Personnel Actions

      Based on the results of our investigation, we concluded that
Schlozman considered political and ideological affiliations in transferring
three career attorneys out of the Appellate Section between June 2005
and December 2005.

        We also found that Schlozman considered political and ideological
affiliations in other personnel actions affecting career attorneys, such as
case assignments and awards. Several section chiefs told us that
Schlozman directed them not to assign important cases to attorneys he
identified as liberal, and one section chief said he instructed her to
nominate the conservative attorneys he had hired for awards.

        In this section, we first discuss the evidence supporting our
conclusion that Schlozman considered political and ideological
affiliations in transferring three career attorneys out of the Appellate
Section. We then describe the evidence supporting our conclusion that
Schlozman considered political or ideological affiliations in making case
assignments and awards to career attorneys.

       A.   Forced Transfers of Appellate Section Attorneys

       Appellate Section Chief Flynn told us that as early as 2004, when
Schlozman was a DAAG with no supervisory responsibility for the
Appellate Section, he often came to Flynn’s office to talk about the
attorneys in the section. According to Flynn, Schlozman was very critical
of the Appellate staff and commented to Flynn that many of the career
attorneys in the Appellate Section were “disloyal,” “against us,” “not on
the team,” and “treacherous.” Flynn said Schlozman stated on several
occasions that when he “came into power,” he wanted to move those
people out of the section to make way for “real Americans.”




                                    35
       According to Flynn’s handwritten notes of conversations she had
with Schlozman in early 2005, which she wrote around the time of the
conversations, Schlozman named three attorneys – who we call Attorneys
A, B, and C – that he wanted to transfer out of the section. 29 Flynn
wrote that Schlozman said “when he was in charge, he would at least get
[Attorney A]” and “when he took over, people would ‘be out one way or
another.’ ” Flynn said Schlozman told her that Attorney A had come to
the section after working in the Civil Rights Division front office of the
Clinton administration and was “not on the team.”

       In later notes, Flynn wrote that Schlozman “viewed [Attorney A] as
a political opponent. Said she ha[s] had [a] ‘free ride’ here.” In other
notes, Flynn wrote that Schlozman “[o]ften brought up Attorney A – and
politics. Said when he obtained power, he would get her out.” Flynn’s
notes of another conversation state that Schlozman again identified
Attorneys A and C, and three others, as “disloyal,” and that Schlozman
“also apparently has problems with [two other named attorneys, Attorney
B], etc.” Flynn also noted that Schlozman expressed the view that most
Appellate Section lawyers were Democrats.

      Another Appellate Section attorney, hired in February 2003, told
us that in about January 2004, Schlozman asked him what it was like to
work in the Appellate Section with “people who supported [Howard] Dean
and think that he’s not liberal enough.” This attorney also described a
voice mail message he received from Schlozman in June 2004. In the
message, Schlozman asked him to informally mentor two young lawyers
who had recently been hired in the Appellate Section. According to the
attorney, in the message Schlozman told him to tell the new attorneys
“who to avoid, like [an Appellate Section deputy chief] and [Attorney C].”
This attorney also recalled Schlozman once asking him if he was aware
that Attorney A had worked in the Civil Rights Division front office during
the Clinton administration.

              1.     Transfers of Attorneys A, B, and C

                     a.     Attorney A

      Attorney A was the first of three Appellate Section lawyers who was
forced to transfer. Appellate Section Chief Flynn told us that at a
meeting on June 17, 2005, two days after Schlozman became the Acting
AAG, Schlozman told Flynn that the Appellate Section was losing three

       29 Flynn made handwritten notes about her discussions with Schlozman and
eventually used them to draft a misconduct referral of Schlozman while he was Acting
AAG. However, Flynn said she never filed the referral for fear of retaliation.




                                         36
slots and that three attorneys would have to be transferred out of the
section. At the meeting, Flynn said Schlozman identified Attorney A as
the first attorney to be transferred. Flynn said Schlozman had previously
described Attorney A as a “political opponent” because she had worked in
the Civil Rights Division front office of the Clinton administration.
According to Flynn, at the meeting he said that Attorney A was
incompetent. Flynn said she disagreed with this assessment and told
Schlozman that section management considered Attorney A to be a good
appellate attorney. 30 According to Flynn, Schlozman raised his voice and
said that Attorney A had gotten a “free ride” and that it was a “good run
but it was over.”

      Flynn’s notes of the meeting, made shortly afterwards, reflect that
Schlozman rejected her observations and suggestions for avoiding
attorney transfers. Her notes also reflect that Schlozman stated that this
was an opportunity to replace some poor attorneys and attorneys who
were opposed to his “agenda” and to bring in some “real Americans.”
According to Flynn’s notes, Schlozman said that if more people left, he
would be able to replace them with people he wanted. Flynn also said
that Schlozman told her that if Flynn wanted to remain the section chief,
she would do things his way.

      Special Litigation Section Chief Cutlar told us that Schlozman also
talked to her about Attorney A’s transfer. According to Cutlar,
Schlozman said that Attorney A was “a Democrat in hiding and is not
going to hide in my Appellate Section.” Cutlar also told us that
Schlozman said that Attorney A “wrote in Ebonics,” “was an idiot,” and
“was an affirmative action thing.”

                      b.      Attorney B

      Attorney B was also transferred from the Appellate Section.
According to her, beginning in about November 2004 – about a year
before her transfer out of the Appellate Section – she was assigned Office
of Immigration Litigation (OIL) cases in which the government was


       30   Attorney A graduated magna cum laude from a top law school. She was
initially hired by the Department to work in the Office of Legal Counsel as an attorney
advisor. She left the Department to accept a 1-year clerkship on the U.S. Court of
Appeals for the District of Columbia Circuit and returned to a career position in the
Civil Rights Division front office. She began work in the Appellate Section in August
2001. Attorney A had received positive annual performance appraisals for the period
2001 through 2004 while in the Appellate Section, including a notation that she had
“strong analytical and writing skills” and a commendation for “an excellent job in . . .
one of the most important Establishment Clause cases decided by the Supreme Court
in recent years . . . .”




                                           37
defending on appeal the deportation of an alien. 31 Over the following
8 months, Attorney B handled eight appeals of OIL matters. During this
same period, all of the civil rights cases she had been handling were
transferred to other attorneys in the section. 32

       Attorney B told us that in June 2005 she asked Section Chief
Flynn why she was no longer being assigned civil rights cases.
Attorney B said she told Flynn she was concerned because of
Attorney A’s recent transfer from the Appellate Section. According to
Attorney B, Flynn told her that Schlozman had ordered Flynn to reassign
all of Attorney B’s civil rights cases to other attorneys and to assign her
only OIL cases. Flynn told us that Schlozman had criticized Attorney B
as not being “one of us” and that Schlozman had directed her to reassign
Attorney B’s civil rights cases to other attorneys and to assign her only
OIL cases.

      Attorney B said that upon learning this information she applied for
and subsequently was offered a position as a detailee on the staff of
Senator Charles Schumer. Attorney B received approval for the detail
from the Civil Rights Division front office.

       While Attorney B was on the detail, an October 13, 2005, e-mail to
Schlozman from a Division front office Counsel asked if Schlozman had
seen a question posed to the Division by Senator Kennedy. According to
the Counsel, the question was about internal deliberations within the
Appellate Section. 33 The Counsel commented in her e-mail, “That too is
probably straight from [Attorney B].” Schlozman forwarded the e-mail to
Wan Kim, who had been nominated but not yet confirmed as AAG,
commenting: “Once again, these [Civil Rights Division] detailees to the
Hill act unprofessionally. This is the woman who we will be moving from
[Appellate] to [Special Litigation]. The change on the books will be




       31 In about November 2004, the Department announced a plan to reduce the
large backlog of OIL appeals by distributing these cases to attorneys in all Department
components and U.S. Attorneys’ Offices around the country.
        32 Attorney B graduated magna cum laude from law school. She clerked for a

year on the U.S. Court of Appeals for the Fourth Circuit and was hired into the
Department’s Honors Program and assigned to the Appellate Section. All of
Attorney B’s annual performance appraisals for the period 2001 through 2004 were
positive, including notations that she was a “very good appellate attorney,” “energetic
and hard working,” and “an excellent writer.”
      33 We were unable to locate a document containing the question Senator

Kennedy posed to the Division.




                                           38
effective next week and it will be implemented if she ever comes back.
Unbelievable!!” 34

       About 1 month later, on November 15, 2005, Attorney B said she
received a telephone call from the Division’s Human Resources Office.
Attorney B said she was told that she should report her time and
attendance to the Special Litigation Section because she had been
transferred to that section from Appellate a month earlier. According to
Attorney B, the Human Resources Officer said the transfer decision had
been made by the front office. Prior to this call, Attorney B said no one
in the Division had discussed with her the possibility of a transfer out of
the Appellate Section. Appellate Section Chief Flynn told us she was not
consulted about Attorney B’s transfer and learned about the transfer
after Attorney B did.

       After receiving this call, Attorney B sent an e-mail to Kim, who had
been confirmed as AAG, asking for a meeting to discuss her transfer.
After exchanging several e-mail messages, Kim assured Attorney B that
he would seek to accommodate her preference, consistent with the needs
of the Division, when she returned from her detail. Kim copied
Schlozman on the final e-mail message he sent to Attorney B.
Schlozman replied to Kim that Kim’s position was fair, but “the
belligerence [Attorney B] displayed in her email was consistent with her
uncompromising positions in [the Appellate Section] when she was there.
Endless headaches were created by her refusal to follow directives from
leadership.” In a subsequent e-mail to Kim, Schlozman added:

       I would note one other thing for the record. [Attorney B]’s
       writing skills are perfectly acceptable. If she is assigned to
       cases where she will not be able to use (as she often does)
       her political ideology to thwart positions advocated by the
       Division’s leadership, she is fine in [Appellate]. She was
       moved simply [because] I did not think it was wise to
       continue encumbering that spot during the entire length of
       her detail.

                      c.      Attorney C

      Another attorney in the Appellate Section, Attorney C, went on
maternity leave in June 2005 and was scheduled to be on leave for
6 months. Attorney C was forced to transfer out of Appellate upon
returning from maternity leave in December 2005.
       34   Kim said he had no reason to believe at that time that the transfer was
politically motivated. The Counsel said that Schlozman told her of Attorney B’s
transfer, but did not provide any explanation for it.




                                           39
       In late November 2005, while Attorney C was on maternity leave,
Schlozman sent an e-mail to AAG Kim criticizing Attorney C’s writing
skills, stating, “Her skills are negligible and, in my judgment, she is
simply incapable of doing the work of the [Appellate] Section.
Accordingly, I would continue to strongly urge her reassignment
following her return.”

      Appellate Section Chief Flynn said that Schlozman told her at a
meeting on December 12, 2005, that he wanted Attorney C to be
transferred out of the section, but that he did not want it to be an
involuntary transfer. Flynn said that Schlozman told her that when
Attorney C returned from maternity leave, Flynn should put her on a
performance improvement plan with dismissal as a possible outcome.
According to Flynn’s handwritten notes, Schlozman also instructed her
not to tell Attorney C of his or the front office’s involvement in her
planned reassignment. Flynn said she told Schlozman it was not
possible to put Attorney C on a performance improvement plan because
she had always received satisfactory performance appraisals in the past
and the section had not issued a performance appraisal for her in the
past year. 35 According to Flynn, Schlozman then told her to inform
Attorney C that she could avoid any problems by agreeing to transfer to
another section.

       An Appellate Section attorney and an Appellate deputy chief said
they learned of Schlozman’s instructions to Flynn about moving
Attorney C out of the section and informed Attorney C. Attorney C told
us that she knew that Attorney A had been transferred and that
Attorney B had also been transferred a few months earlier while on a
detail. Moreover, Attorney C said she had heard from other attorneys in
the section that Schlozman planned to move three attorneys out of
Appellate. Attorney C said she called Flynn in December 2005 and told
her that she was feeling coerced into transferring out of the Appellate
Section and asked what Schlozman might do to her if she stayed.
According to Attorney C, Flynn told her that she could not say or she
would be fired. For these reasons, Attorney C said she decided to
transfer to the Civil Rights Division’s Complaint Adjudication Office.



       35  Attorney C graduated from a top law school. She clerked for two federal
judges and worked at a national law firm for 4 years before joining the Appellate
Section. Attorney C’s annual performance appraisals were consistently positive. In
2001, she received a special commendation award for her work on a civil rights case.
Attorney C’s 2004 performance appraisal stated that she “can be counted on to perform
a wide range of assignments with relatively little supervision. Her writing is good, and
her legal and factual research abilities are impressive.”




                                          40
            2.    Replacement Attorneys

      Flynn said that Schlozman had told her the reason for the three
transfers was to reduce the size of the Appellate Section. However,
Schlozman hired two attorneys for the Appellate Section after he began
transferring the three attorneys from the section.

       The first replacement attorney was hired in September 2005, after
Attorney A’s transfer but before the transfers of Attorneys B and C. An
Appellate Section attorney who was hired into the Honors Program and
joined the Appellate Section in the fall of 2004 told us that Schlozman
told him he was hoping to free up some slots in the Appellate Section for
“good Americans.”

       The second replacement attorney was hired in March 2006, after
all three of the attorneys had been transferred. Flynn said Schlozman
invited her to an interview he was conducting of an applicant. After the
interview, Schlozman asked Flynn if she had any objection to hiring the
applicant to work in the Appellate Section. Flynn told us that she was
not aware that there were any openings in the section at that time and
that she recalled that Schlozman had told her Attorneys A, B, and C were
transferred because the section was being reduced in size. Flynn said
the applicant seemed to have excellent qualifications, and under the
circumstances she did not object. The applicant had clerked for two
federal judges and had worked at a law firm with Gregory Garre, who
had recently been appointed as Principal Deputy Solicitor General.
Garre had recommended the applicant in an e-mail to AAG Kim and
Schlozman, praising the applicant’s work and noting, “We have had
many conversations about the matters of the day, and [the applicant] has
always shown himself to be an extremely solid conservative and
supporter of the President.” The applicant was hired.

            3.    Complaints About the Transfers

      Attorneys A, B, and C all eventually returned to the Appellate
Section after Schlozman left the Division. Attorney A filed a formal Equal
Employment Opportunity complaint in 2005 about her transfer. AAG
Kim told us he decided to settle the matter shortly after being confirmed
as AAG in November 2005 and transferred Attorney A back to the
Appellate Section in October 2006.

      In November 2006, after more than a year on the Senate detail,
Attorney B said she contacted Kim about returning to the Appellate
Section. Kim said he approved her request.

     Attorney C told us she met with Kim in April 2007 upon her
second request to return to the Appellate Section. Kim told us that after


                                   41
a thorough review of the circumstances surrounding Attorney C’s
transfer out of the Appellate Section, he agreed to allow her to return to
the section.

            4.     Analysis

      We concluded that Schlozman inappropriately considered political
and ideological affiliations when he forced three career attorneys to
transfer from the Appellate Section.

       As noted above, Schlozman frequently criticized the attorney staff
in the Appellate Section and talked of his plan, when he “came into
power,” to move certain attorneys from the section to make room for “real
Americans.” Based on our interviews and our review of numerous
e-mails, we found that Schlozman used the term “real Americans” to
refer to individuals with conservative political views. Appellate Section
Chief Flynn also told us that Schlozman named Appellate Section
Attorneys A, B, and C as among several in the section whom he
considered to be “disloyal,” “not one of us,” “against us,” “not on the
team,” or “treacherous” and whom he wanted to move out of the section.
In particular, Schlozman told Flynn that he viewed Attorney A as a
“political opponent” because she had worked in the front office of the
Division during the Clinton administration. Flynn said Schlozman
“[o]ften brought up Attorney A – and politics. Said when he obtained
power, he would get her out.”

      Despite telling Flynn the transfers were required because the
section was losing three attorney positions, Schlozman hired two
attorneys for the Appellate Section after he began transferring attorneys
from the section. The first replacement attorney was hired in September
2005, a few months after Attorney A’s transfer. An Appellate Section
attorney told us that Schlozman had asked him to solicit conservative
lawyers to work in the Division and that the Appellate attorney had
recommended the first replacement attorney. The second replacement
attorney was recommended in an e-mail as being “an extremely solid
conservative and supporter of the President.”

       We found unpersuasive and pretextual Schlozman’s efforts to
justify the transfers of Attorneys A and C on the basis of their
performance. Section Chief Flynn told us that she did not want either
attorney to be transferred and said she told Schlozman that at the time
he ordered their transfers. In addition, both attorneys had consistently
received favorable annual performance appraisals, including
commendations for their work on particular civil rights cases. We also
found pretextual Schlozman’s e-mail suggesting that he transferred
Attorney B to enable a replacement attorney to be assigned to the


                                    42
Appellate Section while Attorney B was on detail. Attorney B sought the
detail because all of her civil rights cases had been reassigned to other
attorneys and her caseload was composed entirely of OIL briefs. Flynn
told us that Schlozman had directed her not to assign any important
matters to Attorney B because she was not “one of us.” In addition,
when AAG Kim told Attorney B that she could return to the Appellate
Section at the end of her detail, Schlozman confirmed that Attorney B’s
politics had been a factor in her transfer. He told Kim that Attorney B
would be fine in Appellate “[i]f she is assigned to cases where she will not
be able to use (as she often does) her political ideology to thwart
positions advocated by the Division’s leadership[.]”

       In sum, we believe that Schlozman’s transfer of these attorneys
violated Department policy and federal law, and also constituted
misconduct.

       B.     Case Assignments and Other Personnel Actions

              1.      Factual Overview

       We also concluded that Schlozman considered political or
ideological affiliations in his handling of case assignments and awards
for career attorneys.

       Appellate Section Chief Flynn told us that after Schlozman became
Acting AAG in June 2005, he became very involved in the day-to-day
assignment and staffing of cases in the Appellate Section. According to
Flynn, Schlozman directed her to assign important cases to new,
inexperienced attorneys he had hired. In an e-mail from Schlozman to
Flynn dated December 4, 2003, Schlozman wrote, “Please let me know
when you decide who is going to argue this 4th Circuit voting appeal. If
[specific Appellate attorney] is going to do it, that’s fine. If it’s the other
atty on the case, I will have either Hans [von Spakovsky] (or possibly
myself) do it instead. The potential stakes are too great to entrust this to
either a lib or an idiot.”

       Flynn also said that Schlozman directed her not to assign
important cases to certain attorneys. For example, she said that a Civil
Rights Division front office Counsel told her that Schlozman was not
comfortable with a particular Appellate attorney working on anything
significant. 36 Flynn considered that attorney to be among the best

       36  The front office Counsel told us she did not know why Schlozman made the
decision to restrict assignments to that attorney. She said she thought the attorney
was talented and she did not agree with the decision to limit the attorney’s caseload,
but that it was “not her call to make.”




                                          43
lawyers in the section. Flynn said, however, that Schlozman had often
commented about the attorney that she was “not on the team” and was
“against us.”

      In addition, according to Flynn, Schlozman precluded one of the
Appellate Section deputy chiefs from reviewing any important cases. An
Appellate Section attorney told us that Schlozman had also commented
to him that the deputy was liberal and not trustworthy. The attorney
said Schlozman told him he should not trust any of the Appellate
Section’s management except Flynn, whom Schlozman described as
conservative because she was promoted to section chief during the
Reagan administration. 37

       Special Litigation Section Chief Cutlar told us that Schlozman
directed her to add a column to her section’s weekly report to the front
office that described staffing of cases so that he could see who was
assigned to which cases. Cutlar said that if Schlozman did not like the
case assignment he would direct her to make a change in the staffing.
Cutlar said Schlozman told her not to assign any important cases to an
attorney whom Schlozman had heard had an anti-Bush bumper sticker
posted in her office. Cutlar said Schlozman accused her of “trying to
circumvent [him]” when she assigned an important case to that attorney.
She said Schlozman made her reassign the matter. In an August 27,
2003, e-mail to Cutlar, Schlozman inquired whether Cutlar had told him
that a Special Litigation Section attorney “was going to be promoted to
senior counsel? I may have just forgotten. She is a nice girl, but I know
her politics and she will require close supervision if she is now a
reviewer.”

       Other e-mails demonstrated that Schlozman considered politics in
his management of case assignments in the Division’s Employment
Litigation Section. For example, in an e-mail dated December 17, 2004,
regarding a case involving the New York City fire department, Schlozman
inquired of Employment Litigation Section Chief Palmer about the lead
attorney assigned to the case: “[The section attorney] is a pinko. So why
is she leading this impt [important] case?” In another e-mail to Palmer
dated November 18, 2004, regarding case referrals from the president
and general counsel of the Center for Equal Opportunity, a conservative
advocacy group, Schlozman commented on the attorney staff in the
Employment Litigation Section: “Now that you have a stable of


       37 Two other persons we interviewed told us that Schlozman expressed concern
about whether several career attorneys could “be trusted” because he believed they had
not voted for President Bush in the 2004 election.




                                         44
conservatives, I hope you are assigning each of these referrals to an
attorney.”

       The evidence also indicated that Schlozman considered the politics
of attorneys in the Division’s Voting Section. In an e-mail dated
November 28, 2003, to front office Counsel von Spakovsky and Principal
DAAG Bradshaw, Schlozman wrote about a particular Voting Section
attorney, “If I recall correctly, [Voting Section attorney] is a crazy lib
hans, am I right?” and “a detail would be a great way to get him out of
our hair for 6 months.”

      Special Litigation Section Chief Cutlar said that Schlozman also
considered politics in determining which attorneys would receive
performance awards. Cutlar described an occasion when Schlozman
called her while she was on vacation to discuss her award nominations.
Cutlar told us that while she tried to point out to Schlozman the things
the attorneys had done to deserve the awards, Cutlar said all Schlozman
wanted to know about was their politics. According to Cutlar, when she
told Schlozman she did not know the politics of the attorneys she
supervised, Schlozman responded, “Stop telling me that. This is
Washington.”

            2.     Analysis

      We concluded that Schlozman inappropriately used political and
ideological affiliations in managing the assignment of cases to attorneys
in the sections of the Division he oversaw. According to Section Chiefs
Flynn, Cutlar, and Palmer, Schlozman placed limitations on the
assignment of cases to attorneys whom Schlozman described as “libs” or
“pinkos,” and he requested that “important” cases be handled by
conservative attorneys he had hired. In addition, Schlozman expressly
inquired about the politics of Cutlar’s nominees for performance awards.

        In contrast, we found no evidence of political or ideological
affiliations affecting attorney transfers or case assignments in the
Division sections not supervised by Schlozman. The chiefs of the
Educational Opportunities, Housing and Civil Enforcement, and
Disability Rights Sections said that front office personnel did not involve
themselves in such matters or otherwise interfere with their management
of the sections.


III.   Management Failures

      The evidence described previously in this section demonstrated
that Schlozman considered political and ideological affiliations in hiring,
transferring, and assigning cases to career attorneys while in the Civil


                                    45
Rights Division from 2003 to 2006. In this section, we examine whether
Schlozman’s supervisors exercised sufficient oversight of his personnel
actions, which we found violated federal law and Department policy.

      A.    Factual Overview

       As Figure 1 in Chapter Two illustrates, there were three Assistant
Attorneys General for the Civil Rights Division appointed by the President
and confirmed by the Senate from 2001 through 2007. Ralph F. Boyd,
Jr., served as AAG from July 2001 to July 2003; R. Alexander Acosta
served in that position from August 2003 to June 2005; and Wan Kim
was the AAG from November 2005 to August 2007.

      Two Principal Deputy Assistant Attorneys General supervised
Schlozman when he was a Deputy Assistant Attorney General in the
Division: (1) J. Michael Wiggins from May 2003, when Schlozman joined
the Division, until October 2003, and (2) Sheldon Bradshaw from
October 2003 through April 2005. Schlozman succeeded Bradshaw as
Principal DAAG and remained in that position until becoming Acting
AAG in June 2005. After Kim was confirmed as AAG in November 2005,
Schlozman returned to the Principal DAAG post.

       We found that the Civil Rights Division hiring process operated
without significant controversy during AAG Boyd’s tenure. Boyd issued a
memorandum in February 2002 altering the hiring procedures in the
Division and increasing the involvement of the front office in hiring. He
told us he did so to broaden the pool of applicants considered for career
positions. Boyd said his goals in hiring were both quality and diversity.
He said he saw the need immediately upon becoming AAG to improve the
diversity of attorneys within the Division, both in supervisory and line
positions. Boyd resigned from the Department in July 2003, shortly
after Schlozman joined the Division.

      Acosta told us that while he was AAG, the hiring process in the
Division remained largely the same as it had been under Boyd. He
altered the process slightly in a December 1, 2003, memorandum by
setting specific deadlines and requiring that the Principal DAAG be
included in the hiring process. He said he delegated responsibility for
hiring along with the day-to-day management of the Division to Principal
DAAG Bradshaw. Acosta told us he was not involved in the attorney
hiring process and that attorneys were often hired without him knowing
about it.

       Acosta acknowledged that Schlozman had significant responsibility
for hiring during Acosta’s tenure as AAG. Acosta said he was not aware
that Schlozman acted inappropriately in the hiring process. Acosta said



                                   46
he believed that all attorneys hired in the Division were recommended by
the section chief and the DAAG overseeing that section. Acosta said no
one complained to him that inappropriate hiring practices were taking
place.

       However, Special Litigation Section Chief Shanetta Cutlar told us
she complained directly to Acosta about Schlozman’s intent to hire as
her deputy an applicant whom she considered unqualified even for a line
attorney position. Cutlar said she also told Acosta that Schlozman had
hired a number of applicants she considered unqualified, although she
told us she was not “bold enough” to tell Acosta she believed Schlozman
was considering applicants’ political and ideological affiliations in making
hiring decisions. Acosta, on the other hand, told us he had no
recollection of Cutlar complaining to him about Schlozman’s hiring
practices. According to Cutlar, Acosta declined to get involved, referring
her instead to Principal DAAG Bradshaw. Cutlar said that when she
complained to Bradshaw, he told her Schlozman handled hiring
decisions.

       Acosta acknowledged that during his tenure as AAG he became
aware of some problems with Schlozman’s management approach and
conduct. He said Schlozman was “very loose with his language” and
sometimes made inappropriate jokes. For example, Acosta described an
instance in which Schlozman passed along an inappropriate e-mail. 38
Acosta also said that he became concerned about Schlozman’s judgment
and “appropriateness” in approximately December 2004, when Acosta
received notice of an attorney’s grievance regarding his performance
appraisal. Acosta could not remember the name of the attorney or the
specifics of his concerns, but said he asked Bradshaw to review the
matter and grievances of other performance appraisals Schlozman had
approved. Acosta said he became more concerned about Schlozman’s
judgment around the time he was preparing to leave the Division in
mid-2005 as a result of discussions Acosta had with retiring Voting


         38 In that incident in August 2004, Voting Section Chief John Tanner sent an

e-mail to Schlozman asking Schlozman to bring coffee for him to a meeting both were
scheduled to attend. Schlozman replied asking Tanner how he liked his coffee.
Tanner’s response was, “Mary Frances Berry style – black and bitter.” Berry is an
African-American who was the Chairperson of the U.S. Commission on Civil Rights from
November 1993 until late 2004. Schlozman forwarded the e-mail chain to several
Department officials (including Principal DAAG Bradshaw) but not Acosta, with the
comment, “Y’all will appreciate Tanner’s response.” Acosta said that when he was made
aware of the incident, he required Schlozman to make a written apology to him for his
role in forwarding the e-mail and that Schlozman did so. Acosta said that he believed
Schlozman wrote him the apology in an e-mail, but we were unable to retrieve Acosta’s
e-mails and did not find such an e-mail among Schlozman’s recovered e-mail messages.




                                         47
Section Chief Joseph Rich about Schlozman’s management. 39 Yet,
Acosta took no action to alert those in his chain of command.

      As noted above, Wiggins served as Principal DAAG from December
2002 to October 2003. He left the Department in May 2004 before our
investigation began. Wiggins declined our request to be interviewed and
because he was no longer a Department employee we could not compel
him to cooperate with our investigation. In our investigation, however,
we found several e-mails to or from Wiggins relating to Schlozman and
hiring in the Division. For example, Wiggins received an e-mail from a
federal judge on November 13, 2003, recommending his law clerk for an
attorney position. Wiggins forwarded the e-mail recommendation to
Schlozman, stating, “We need to hire this guy.” Schlozman’s e-mail reply
inquired of Wiggins, “conservative?” Wiggins’s response was that the
“Judge is. We can check this guy.”

       Bradshaw was the Principal DAAG for Acosta from October 2003 to
April 2005. As noted above, Acosta delegated responsibility for hiring to
Bradshaw. Bradshaw said neither he nor Schlozman considered
impermissible factors in hiring. He said that there was an effort to hire
people who would not attempt to expand the scope of the law or create
policy. Bradshaw said that during his tenure the Civil Rights Division
hired “plenty” of liberal attorneys and promoted a large number of career
attorneys, an overwhelming number of whom he believed were liberal.
Bradshaw also said it was not a problem in his view to hire
conservatives. It would only be a problem, he said, if conservatives were
hired and liberals were excluded. Bradshaw believed that any tendency
toward hiring conservatives in the Division was likely explained by the
tendency of conservatives to apply during a Republican administration.

       Bradshaw acknowledged that he heard Schlozman call people “libs
and commies,” but said Schlozman did not do so in the context of hiring.
As noted previously, Bradshaw also stated that Schlozman’s use of terms
such as “good American,” “fine American,” and “on the team” was
ideologically neutral, meaning simply that the person was a hard worker
or a “good guy.”

       Former AAG Kim said that during the time he was a DAAG, from
August 2003 to November 2005, Bradshaw and Schlozman made most of
the final decisions on attorney hiring. As described above, Kim recalled
an instance while he was a DAAG when a concern about improper hiring
       39  Acosta added that when he learned in early 2007 that Schlozman was being
considered for the position of Director of EOUSA, he told Kyle Sampson, the Chief of
Staff to the Attorney General, that he did not believe Schlozman was suitable for the
position.




                                          48
considerations by Schlozman was brought to his attention by former Civil
Rights Division front office Counsel Andrew Lelling. According to Kim, in
about March 2004 Lelling told him that Lelling had recommended a
colleague for a position in the Civil Rights Division to Schlozman, and
Schlozman asked him whether his colleague was conservative. When
Lelling said he did not think so, Schlozman told him that “he probably
won’t be hired.”

       Kim said Lelling’s call bothered him and within a week of speaking
to Lelling, Kim raised the subject of improper hiring considerations with
Schlozman. Kim said he made clear to Schlozman that it would be
unlawful and impermissible under the Civil Service Reform Act to make
hiring decisions based on political affiliations. However, Kim said he did
not report the call from Lelling or his concerns about Schlozman to his
supervisors at the time – either Bradshaw or Acosta. Kim said he
thought that Schlozman had not been aware of the requirements of the
law concerning hiring, and by making Schlozman aware of the law, Kim
believed he had appropriately addressed the issue. Kim said this was the
only conversation he had with Schlozman on this issue.

       We found two e-mails about hiring that Schlozman sent to Kim
while both were DAAGs that should have raised further concerns for Kim
about Schlozman’s hiring practices. As discussed previously, in a
January 30, 2004, e-mail, Schlozman declined an invitation from Kim to
join him for lunch, noting, “Unfortunately I have an interview at 1 with
some lefty who we’ll never hire but I’m extending a courtesy interview as
a favor.” Kim said he was disturbed when he found this e-mail in
preparation for his interview with us. He said he did not recall the e-mail
and said he had never had a conversation with Schlozman that was
similar in substance to the e-mail.

       In a second e-mail, dated March 15, 2004, Schlozman told Kim,
“We need to start thinking about [Criminal Section] lateral hires. I fear
that [Criminal Section Chief] Al [Moskowitz] and his minions will be
sorting through the résumés looking for [name of attorney] clones who
are big libs and would enforce certain of our statutes only with great
reluctance.” Again, Kim said he had no recollection of the e-mail and
said he probably ignored it when he received it.

      Kim told us that when he became the AAG in November 2005, he
had concerns about Schlozman serving as his principal deputy. He said
it was not his decision to make Schlozman the principal deputy. He said
he was told by the Presidential Personnel Office when he became AAG
that Schlozman would be his Principal DAAG. Kim said he did not
delegate his hiring authority to Schlozman and was “very clear” with
Schlozman about how he was to handle matters on Kim’s behalf.


                                    49
       Kim said he learned after he became the AAG that Schlozman had
executed a plan to transfer three attorneys from the Appellate Section
whom he considered to be “liberal” and “disloyal” so he could replace
them with “real Americans.” Kim told us that was the “last straw.” He
said Schlozman was taking actions as his Principal DAAG that were
inconsistent with his interests. However, Kim said he never discussed
the transfers with Schlozman. Kim said he had stopped speaking to
Schlozman by that time as Schlozman was about to leave the Division to
become the interim U.S. Attorney for the Western District of Missouri.
Many of the Division attorneys we interviewed, including Kim, said they
were relieved when Schlozman left the Division.

       Kim said that when Schlozman’s tenure as interim U.S. Attorney
for the Western District of Missouri was coming to an end in early 2007,
Kim learned that Schlozman was being considered for the position of
Director of EOUSA. Kim contacted Courtney Elwood, Deputy Chief of
Staff and Counselor to the Attorney General, to tell her he thought it was
a “bad idea” to put Schlozman in that position. Kim said he was “really
concerned about Schlozman’s fitness to serve.”

      Kim also described Schlozman as being “ridiculously brash” and
someone who often would say things to make himself seem important.
Kim said that people who knew Schlozman often discounted what he
said. Kim added that not everything Schlozman did was politically
motivated.

      B.    Analysis

      We believe that AAGs Acosta and Kim and Principal DAAGs
Bradshaw and Wiggins had indications of potential problems in
Schlozman’s actions and judgment, and that each had sufficient
information about Schlozman’s conduct to have raised red flags
warranting closer supervision of him. Indeed, Kim, Wiggins, and
Bradshaw were informed of specific instances that should have raised
concerns that Schlozman was using impermissible political
considerations in making hiring decisions. Despite the warnings, they
took no action to investigate, bring the matter to the attention of their
supervisors, or change Schlozman’s role in hiring for the Division.

      For example, Cutlar said that in 2004 she told Acosta about
Schlozman hiring applicants she considered to be unqualified. At that
time, Acosta also became aware of an attorney grievance filed against
Schlozman about his performance appraisal and learned that Schlozman
forwarded an inappropriate, racially insensitive e-mail to other
Department officials. Although these incidents did not directly relate to
the consideration of political or ideological affiliations in hiring, these


                                    50
matters should have put Acosta on notice of potential problems with
Schlozman’s conduct and judgment.

      However, Acosta did not take sufficient action in response to the
information. Acosta asked for Schlozman to apologize to him for
forwarding the offensive e-mail, but he did not ensure that Schlozman
was more closely supervised. Acosta’s response to Cutlar’s complaint
was also passive. According to Cutlar, Acosta told her that Bradshaw
handled hiring and that she should discuss the matter with him. With
respect to an attorney’s grievance of a performance appraisal that was
approved by Schlozman, Acosta also delegated further inquiry of the
matter to Bradshaw. At the same time, Acosta allowed Schlozman to
continue to control the hiring responsibilities for the sections he
supervised and for the Honors Program.

       While Acosta said he developed greater concerns about
Schlozman’s management by the middle of 2005, shortly before Acosta
left the Division to become U.S. Attorney for the Southern District of
Florida, it was not until 2007, based on this same information, that
Acosta expressed his concerns to anyone at the Department. At that
time, he informed the Office of the Attorney General of his concerns
about Schlozman’s suitability to become Director of EOUSA. Yet, Acosta
took no steps while AAG to more closely manage Schlozman or reduce
his role in hiring within the Division, and we found no evidence that
Acosta raised any concerns before Schlozman became Acting AAG for the
Civil Rights Division or interim U.S. Attorney for the Western District of
Missouri.

        In addition, as outlined above, both Wiggins and Bradshaw, as
Schlozman’s direct supervisors when they were Principal DAAGs, had
direct knowledge that Schlozman considered political or ideological
affiliations in hiring, as evidenced by e-mails described in this report.
For example, in an e-mail exchange with Schlozman about an applicant
recommended by a judge, Wiggins responded to Schlozman’s inquiry as
to whether the applicant was conservative by stating that the
recommending judge was conservative and that he could find out about
the applicant. Bradshaw joined Schlozman in the use of terms such as
“good American,” “fine American,” “right thinking American,” and being
“on the team.” As we previously noted, we concluded from the plain
language of these e-mails, and the common understanding of virtually all
of the people we interviewed who heard Schlozman use such terms, that
they had a political and ideological meaning.

     Moreover, we found Bradshaw’s assertion that the terms “good
American” and “on the team” were ideologically neutral and simply
meant that the person was a hard worker or a “good guy” was not


                                   51
credible. We also did not find credible Bradshaw’s assertion that
Schlozman described attorney staff in the Civil Rights Division as being
“libs” and “commies,” but never used such terms in the context of hiring.
The e-mail evidence and statements of numerous Division attorneys
described in this report show that Schlozman referred to applicants in
such terms in the context of hiring and that Bradshaw was aware of his
doing so.

       We also found that AAG Kim could and should have taken
additional action to prevent Schlozman’s improper conduct. In March
2004, when Kim and Schlozman were both DAAGs, Kim received the
complaint from Lelling about Schlozman’s comment on an applicant who
was not conservative. Kim handled the complaint by meeting with
Schlozman and informing him of what constituted a prohibited personnel
action. Kim did not notify Principal DAAG Bradshaw, AAG Acosta, or
anyone else (including the OIG, OPR, or the Office of Special Counsel).
In addition to Lelling’s complaint, e-mails around the same time from
Schlozman to Kim demonstrated that Schlozman was considering
political and ideological affiliations in hiring decisions, and Kim did not
take any action to address these concerns either.

       More significantly, when Kim became AAG, Schlozman remained in
an influential position as Principal DAAG before becoming interim
U.S. Attorney for the Western District of Missouri. When Kim learned
that Schlozman had transferred career attorneys from the Appellate
Section because he believed they were “liberal” and “disloyal,” Kim never
discussed the transfers with Schlozman because he had stopped
speaking to him by then. Although Kim later reinstated the attorneys to
the Appellate Section, he took no action against Schlozman at the time
he first learned of Schlozman’s improper conduct. Only when Kim
learned that Schlozman was being considered for the position of Director
of EOUSA did he express his concern about Schlozman to Department
officials.

       We concluded that Acosta and Kim did not sufficiently supervise
Schlozman. In light of indications they had about Schlozman’s conduct
and judgment, they failed to ensure that Schlozman’s hiring and
personnel decisions were based on proper considerations. In addition,
Bradshaw and Wiggins both had knowledge of Schlozman’s improper
consideration of political and ideological affiliations in hiring, and they
also failed to take action to ensure that Schlozman’s hiring decisions
were consistent with the law and Department policy.




                                     52
                   CHAPTER FOUR:
     SCHLOZMAN’S FALSE STATEMENTS TO CONGRESS
      On June 5, 2007, Schlozman testified under oath before the
Senate Judiciary Committee in connection with its investigation into the
use of political considerations in the hiring and firing of career attorneys
at the Department of Justice. At the time of his testimony, Schlozman
was Associate Counsel to the Director of EOUSA. 40

      On September 6, 2007, after resigning from the Department,
Schlozman responded by letter to supplemental questions for the record
posed to him in writing by several Senators as a follow-up to his Senate
Judiciary testimony.

       We believe that Schlozman made false statements to the Senate
Judiciary Committee, both in his sworn testimony and in his written
responses to the supplemental questions for the record. In this section,
we describe Schlozman’s statements and the evidence that we believe
demonstrates their falsity. The evidence cited below has been described
in previous sections of this report. However, we describe it again here to
compare his statements with the evidence supporting our conclusion
that the statements were false.


I.   Statements About Hiring

      During the June 5, 2007, hearing before the Senate Judiciary
Committee, Schlozman stated in response to questions from Senator
Charles Schumer:

       Senator Schumer: Mr. Schlozman, is the policy against
       considering political and ideological affiliations in the hiring
       of career department employees formal or informal?
       Mr. Schlozman: I think it is pursuant to a civil service
       statute for career employees -- the Hatch Act.
       Senator Schumer: So it’s formal
       Mr. Schlozman: Yeah.
       Senator Schumer: Yeah. Did you ever violate it?

       40  As discussed above, Schlozman had left the Civil Rights Division in March
2006 to become interim U.S. Attorney for the Western District of Missouri, a position he
held until he was replaced in March 2007. At that time, he was transferred to EOUSA.
He left the Department in August 2007.




                                          53
       Mr. Schlozman: I did not.
       Senator Schumer: Did you ever, quote, “cross the line,” as
       Ms. Goodling has admitted doing?
       Mr. Schlozman: I did not.

       Schlozman’s answers show that he was aware that consideration of
political and ideological affiliations was prohibited in hiring attorneys for
career civil service positions at the Department. As discussed above,
then-DAAG Wan Kim had also warned him about engaging in such
practices. Kim said he told Schlozman around March 2004 that it was
unlawful and impermissible to make hiring decisions for career positions
based on political affiliations. 41

       According to Kim, he brought this prohibition to Schlozman’s
attention because of a telephone call Kim had received from Andrew
Lelling, who had previously worked in the front office of the Civil Rights
Division as Counsel to AAG Ralph F. Boyd, Jr. In the telephone call,
Lelling complained to Kim that Schlozman was considering political or
ideological affiliations when making hiring decisions. Kim said Lelling
told him that Schlozman had asked Lelling whether a colleague whom
Lelling was recommending for a position in the Division’s Criminal
Section was conservative. When Lelling indicated that he did not think
his colleague was conservative, Schlozman said he would not be hired.

       Schlozman’s testimony in response to Senator Schumer’s question
that he did not violate the law, or “cross the line,” by considering political
factors in attorney hiring is contradicted by other evidence. Most
directly, Schlozman admitted to Special Litigation Section Chief Shanetta
Cutlar in approximately March 2007 that he had considered politics.
According to Cutlar, Schlozman told her, “You know, I was thinking I
probably made some mistakes . . . . I probably considered politics when I
shouldn’t have.” Later in the same conversation, Schlozman said, “Well,
I’m just saying I got caught up in the group mentality. You know how it
is.” Cutlar said that Schlozman concluded this conversation by again
admitting that “maybe I’ve made some mistakes. Maybe I considered
politics when I shouldn’t have.” 42


        41 Kim said he “basically parrot[ed] the requirements of the CSRA” to

Schlozman. In his testimony, Schlozman erroneously referenced the Hatch Act, a
federal statute that regulates partisan political activity by federal employees, rather
than the Civil Service Reform Act, 5 U.S.C. § 2301, et seq.
       42In a subsequent telephone conversation with Cutlar during the same time
frame, Schlozman retreated from his admissions about his consideration of politics in
hiring. Cutlar said in this follow-up telephone conversation Schlozman told her, “You
                                                                                  (Cont.)


                                            54
      The evidence also showed that Schlozman boasted to others about
using political and ideological affiliations in hiring for career Civil Rights
Division attorney positions. For example, during his June 5 Senate
testimony, Schlozman acknowledged that he had boasted about his
hiring of Republicans and conservatives in the Division. 43

       Another example is an e-mail dated January 6, 2004, from
Schlozman to an attorney hired by Schlozman in the Civil Rights
Division. Shortly after being hired, the attorney sent an e-mail to
Schlozman expressing his happiness in the Special Litigation Section,
noting that his “office is even next to a Federalist Society member.”
Schlozman replied, “Just between you and me, we hired another member
of ‘the team’ yesterday. And still another ideological comrade will be
starting in one month. So we are making progress.”

      Employment Litigation Section Chief David Palmer also told us
that he heard Schlozman express pleasure about his bringing “RTAs,”
meaning “right-thinking Americans,” and Republicans into the Division.
Palmer added, “I don’t want to say that [Schlozman] had a preference,
but [he] liked hiring conservatives.” Lelling told us that Schlozman “was
always very unapologetically clear about the kind of people he wanted
hired into the Department . . . . [H]e want[ed] people in the Department
who [were] conservative on the legal issues, maybe conservative period.”

      Accounts from several other people we interviewed and e-mails
provided further evidence that political and ideological affiliations were
factors in Schlozman’s hiring decisions throughout his tenure in the Civil
Rights Division. According to Appellate Section Chief Diana Flynn,
Schlozman was open about his disdain for and lack of trust in the
attorney staff of the Appellate Section. She told us that in conversations
with her Schlozman alternately referred to the Appellate Section lawyers
hired during prior administrations as “Democrats” and “liberals” and
said they were “disloyal,” could not be trusted, and were not “on the
team.” Flynn said Schlozman pledged to move as many of them out of
the Civil Rights Division as he could to make room for the “real
Americans” and “right-thinking Americans” he wanted to hire. As
discussed previously, based on accounts from numerous Division

know I didn’t do anything wrong.” Cutlar also told us that during that telephone
conversation Schlozman repeated several times that he wanted her to know and
remember that he considered her to be “a close and personal friend.”
      43 Senator Schumer: Did you ever boast to anyone that you hired a certain

number of Republicans or conservatives for any division or section at the Justice
Department?
          Mr. Schlozman: I mean, I probably have made statements like that.




                                          55
employees and officials – including Kim and Section Chiefs Cutlar and
Flynn – and from the context of Schlozman’s use in e-mails of terms such
as “real American,” “right-thinking American,” and being “on the team,”
the evidence indicated that these terms were Schlozman’s way of
referring to politically conservative applicants and attorneys.

       A May 9, 2003, e-mail provides additional evidence of the meaning
of Schlozman’s phrases. Luis Reyes, then Counsel to the AAG for the
Civil Division, sent an e-mail to Schlozman in connection with a legal
matter, endorsing an attorney in the Department’s Office of Legal Policy
as a “right thinking american to say the least.” In an e-mail response,
Schlozman wrote that he “just spoke with [the attorney] to verify his
political leanings and it is clear he is a member of the team.”

       Other e-mails showed that Schlozman viewed applicants
unfavorably who were Democrats or deemed liberal. For example, in
November 2003, when a Department attorney forwarded to Schlozman
the résumé of a recent law school graduate clerking for a federal judge
who was interested in working at the Department, Schlozman forwarded
the résumé to a Division front office Counsel, commenting that “this has
lib written all over it. let’s discuss[.]” 44

       On November 13, 2003, Principal DAAG J. Michael Wiggins sent
an e-mail to Schlozman containing a magistrate judge’s recommendation
of his law clerk for a position in the Civil Rights Division. The magistrate
judge described his clerk as “a very able lawyer” who would be “a good
addition to your staff.” Wiggins noted to Schlozman, “We need to hire
this guy[.]” In a one-word e-mail reply to Wiggins, Schlozman wrote:
“conservative?”

      In an e-mail to a Division front office Counsel dated January 12,
2004, Schlozman inquired about an attorney being referred as a
candidate for a career civil service position by asking, “how does he view
the world, if you know what I mean?” Schlozman added in the e-mail
“(and for God’s sake, don’t forward this email!).”

       On January 30, 2004, Schlozman sent an e-mail to Kim declining
an invitation to join Kim for lunch, noting, “Unfortunately I have an
interview at 1 with some lefty who we’ll never hire but I’m extending a
courtesy interview as a favor.” In another e-mail dated March 5, 2004,
Schlozman wrote to a Division attorney that a Criminal Section deputy

       44  The applicant’s résumé showed prior employment for three Democratic
members of Congress as well as positions in the Department of Education and the
Office of Justice Programs during the Clinton administration. Although the applicant
appeared to be qualified for the position, she was not hired.




                                         56
“has recommended several other commies for permanent positions in
[the section]. [Criminal Section Chief Moskowitz] probably would concur
with his recommendations. But as long as I’m here, adherents of Mao’s
little red book need not apply.”

       Schlozman sent another e-mail to Kim dated March 15, 2004,
stating in part, “We need to start thinking about [Criminal Section]
lateral hires. I fear that [Moskowitz] and his minions will be sorting
through the résumés looking for [name of attorney] clones who are big
libs and would enforce certain of our statutes only with great reluctance.”

       Also on March 15, 2004, Schlozman sent an e-mail expressing his
uncertainty about whether an applicant for the Division’s Special
Litigation Section was conservative because she had interned at the
ACLU. 45 The applicant told us that Schlozman called and questioned her
about her internship and asked whether she was a member of the ACLU.
She said she assured him that she was not a member and that she had
interned with the ACLU to learn about constitutional law. According to
Special Litigation Section Chief Cutlar, Schlozman hired the applicant,
even though Cutlar objected for other reasons, once Schlozman was
satisfied that the applicant was not an ACLU member.

      In an e-mail dated May 27, 2005, Employment Litigation Section
Chief Palmer asked Schlozman whether he was aware that a new Honors
Program attorney who had been assigned to the section had worked for
the Lawyers’ Committee for Civil Rights. Schlozman’s reply e-mail stated
that he “kn[e]w all about him. He will be okay. (He worked as intern in
[the Bush administration’s] W[hite] H[ouse] Counsel’s Office.) But he was
forced on us anyway and got the nod over my objection. Still, I expect
you to monitor him very, very carefully.”

       The evidence outlined above also supports the finding that
Schlozman made false statements in his written responses to a question
for the record from Senator Leahy asking whether Schlozman ever
considered political or ideological affiliations in hiring for career attorney
positions. Senator Leahy’s question and Schlozman’s response were as
follows:

       Q: When considering, recommending or approving
       candidates for appointment to career positions at the
       Department, did you ever consider applicants’ political party
       affiliation, ideology, membership in a nonprofit organization

       45March 15, 2004, e-mail from Schlozman to Civil Rights Division Counsel Matt
Zandi: “Matt, if [the applicant] is so conservative, how is it that she was a member of
the ACLU in Tennessee during law school?”



                                          57
      or loyalty to the President, or otherwise screen potential
      career hires for political allegiance? If so, please provide
      details. Are you aware of whether others at the Department
      considered those factors in making decision regarding career
      hires? If so, whom?
      A: During my tenure, all candidates for career attorney
      employment were judged individually based on a
      comprehensive review of their academic background, legal
      and analytical skills, unique life experiences, interest in the
      work of the Department, and a personal interview.
      Applicants were not hired based on their political party
      affiliation, membership in a nonprofit organization, or loyalty
      to the President.
      With respect to ideology, I did not employ any sort of
      ideological litmus test. I sought instead to hire individuals
      who would vigorously enforce the laws under the Civil Rights
      Division’s jurisdiction, irrespective of their own political or
      ideological views. Of course, to the extent an applicant
      expressed a strong interest, or had a particularly developed
      background, in one of the Division’s enforcement priorities –
      e.g., religious liberties, human trafficking, minority language
      issues, institutional reform, etc. – I considered that to be a
      positive.

      We believe the evidence summarized above shows that
Schlozman’s answer was false, particularly when he stated, “Applicants
were not hired based on their political party affiliation, membership in a
nonprofit organization, or loyalty to the President,” and that he did not
“employ any sort of ideological litmus test.” We found several instances
in which Schlozman inquired directly if an applicant was “conservative”
and many more in which he used such substitute phrases as “good
American,” “right-thinking American,” or being “on the team” in
assessing whether the applicant should be hired. Moreover, several of
the career section chiefs supervised by Schlozman told us that
Schlozman routinely ignored applicants’ qualifications for the job and the
assessments and recommendations of the career supervisors when
making hiring decisions.

       In sum, we believe the evidence in our investigation contradicts
Schlozman’s testimony and written responses to supplemental questions
for the record. The evidence shows that Schlozman also violated
Department policy and federal law that prohibits considering political
and ideological affiliations in hiring career employees.




                                    58
II.   Statements About Appellate Section Attorney Transfers

       We also concluded that Schlozman made false statements about
the transfer of the three Appellate Section attorneys, which we described
in Chapter Three of this report. We believe that Schlozman answered
falsely the following question for the record posed to him by Senator
Dianne Feinstein:

       Q: Was your decision to order or suggest the transfer of any
       attorney out of the Appellate Section based, in whole or in
       part, on an intent to fill the position with an attorney who
       would adopt more conservative views?
       A: No.

      Special Litigation Section Chief Cutlar told us that Schlozman
talked to her about moving Attorney A, the first attorney transferred from
the Appellate Section. Cutlar said Schlozman referred to Attorney A as
“a Democrat in hiding and is not going to hide in my Appellate Section.”
An Appellate Section attorney also told us that after he had begun
working in the section, Schlozman told him that he was hoping to free up
some slots in the Appellate Section for “good Americans.”

      Appellate Section Chief Flynn also told us that Schlozman said
many of the career attorneys in the Appellate Section were “disloyal,”
“against us,” “not on the team,” and “treacherous.” Flynn said that
Schlozman remarked to her on several occasions that when he “came
into power” he wanted to move these career people out of the section to
make way for “real Americans.” According to handwritten notes made by
Flynn around the time of conversations she had with Schlozman in early
2005, Schlozman named two of the three Appellate Division attorneys
(Attorneys A and C) who were later forced to transfer from the Appellate
Section as among several he wanted to transfer out of the section. In her
notes, Flynn also recorded that Schlozman said “when he was in charge,
he would at least get [Attorney A]” and “when he took over, people would
‘be out one way or another.’ ”

       Flynn said that Schlozman told her that Attorney A had come from
the front office of the prior administration and was “not on the team.” 46
In later notes made by Flynn before Schlozman became Acting AAG and
assumed supervisory responsibility for the Appellate Section in June
2005, Flynn wrote that Schlozman “viewed [Attorney A] as a political

        This evidence also contradicts Schlozman’s response to Senator Kennedy’s
       46

supplemental question that the transfer of Attorney A had “nothing to do with her prior
employment.”




                                          59
opponent. Said she ha[s] had [a] ‘free ride’ here.” In other notes, Flynn
wrote that Schlozman “[o]ften brought up [Attorney A] – and politics.
Said when he obtained power, he would get her out.” Flynn’s notes also
state that Schlozman had identified other Appellate Section attorneys,
including Attorneys A and B, as being “disloyal” and that he “also
apparently has problems with [Attorney C, among others].”

       Flynn also told us that within days of Schlozman becoming Acting
AAG in June 2005, he met with Flynn and announced his plan to reduce
the size of the Appellate Section by transferring three attorneys. Flynn’s
notes of the meeting, made shortly afterwards, indicate that Schlozman
stated that this was an opportunity to replace some poor attorneys and
attorneys who were opposed to his “agenda” and bring in some “real
Americans.” Flynn told us that Schlozman identified Attorney A as the
first of the attorneys to be involuntarily transferred. Flynn said that
Schlozman became irritated by her suggested alternatives to transferring
attorneys from the section, which Flynn opposed, or transferring more
junior attorneys if anyone had to be transferred. Flynn’s notes of the
meeting also reflect that Schlozman said he was not concerned about
maintaining the morale of the attorney staff in the Appellate Section. He
said that from his perspective if more people left he would be able to
replace them with people he wanted.

       Schlozman hired two attorneys for the Appellate Section after he
began transferring attorneys purportedly to reduce the size of the
section. The first replacement attorney was hired in September 2005,
after Attorney A’s transfer. An Appellate Section attorney whom
Schlozman had previously hired told us that the front office asked him to
solicit conservative lawyers to work in the Division. The Appellate
attorney recommended the replacement attorney that Schlozman
subsequently hired.

       A second replacement attorney was hired in March 2006. This
attorney was recommended in an e-mail to Kim and Schlozman by
Gregory Garre, Principal Deputy Solicitor General, as being “an extremely
solid conservative and supporter of the President.”

      In sum, we believe the evidence contradicts Schlozman’s
statements that he did not order the transfer of any attorney from the
Appellate Section so that he could replace them with more conservative
attorneys.




                                    60
III.   Additional Statement About Hiring While Interim
       United States Attorney

      We analyzed another statement Schlozman made during his
testimony before the Senate Judiciary Committee concerning his hiring
practices while he was the interim U.S. Attorney for the Western District
of Missouri. Schlozman was asked about the factors he considered in
hiring when he was the interim U.S. Attorney. After explaining that he
was not authorized to hire career Assistant U.S. Attorneys (AUSA)
without authorization from EOUSA, Schlozman testified as follows:

       Senator Schumer: Did you ever consider political affiliation
       or ideology [in hiring while you were a U.S. Attorney]?
       Mr. Schlozman: I did not.

        We found an e-mail Schlozman sent on December 22, 2006, when
he was an interim U.S. Attorney, to EOUSA in which he sought authority
to fill vacant career AUSA positions. In the e-mail, Schlozman advocated
for his top three choices, stating that they were all “rock-solid
Americans” who would be a “hugely positive legacy for this
Administration in this District.” Schlozman then discussed the
qualifications of each candidate. Regarding the first applicant,
Schlozman wrote that his “involvement with the Bush/Cheney campaign
speaks for itself.” Regarding the second candidate, Schlozman noted
that he met the applicant during the applicant’s clerkship with a
“43-appointee,” a reference to a federal appellate judge appointed by
President George W. Bush. Schlozman’s e-mail described the candidate
as “a rock star talent in addition to being hard core (in the most positive
sense of that phrase) on the issues[.]” Schlozman described the third
applicant as “an obvious conservative of incredible intellect.”

      In his written response to Senator Leahy’s question for the record,
Schlozman addressed the hiring of AUSAs in the U.S. Attorney’s Office
and his December 22, 2006, e-mail to EOUSA. Senator Leahy’s question
and Schlozman’s response were as follows:

       Q: When considering, recommending or approving
       candidates for appointment to career positions at the
       Department, did you ever consider applicants’ political party
       affiliation, ideology, membership in a nonprofit organization
       or loyalty to the President, or otherwise screen potential
       career hires for political allegiance? If so, please provide
       details. Are you aware of whether others at the Department
       considered those factors in making decision regarding career
       hires? If so, whom?



                                    61
      A: . . . As I noted at the hearing, I had heard rumors that
      Ms. Goodling considered political affiliation in approving
      hiring decisions for career positions. I also knew that,
      although the decision to authorize the hiring of AUSAs by
      interim U.S. Attorneys was technically vested in EOUSA,
      Ms. Goodling exercised great control in this area. Knowing
      this, and in order to maximize the chances of obtaining
      authority to hire an additional AUSA, I recall once noting the
      likely political leanings of several applicants in response to a
      query from EOUSA about the candidates being considered
      for the position. However, none of the individuals I
      referenced was hired, nor do I believe they were even
      interviewed. Indeed, I adopted an apolitical hiring process in
      which I completely turned over the process (i.e., selecting
      candidates to be interviewed, interviewing candidates, and
      recommending a candidate to be hired) to a hiring panel
      consisting of three veteran career prosecutors in my office –
      the First Assistant U.S. Attorney, the Senior Litigation
      Counsel, and a Supervisory [AUSA]. I had no role in the
      selection of candidates to be interviewed nor did I participate
      in the interviews; all of that was done by the three career
      prosecutors. The only thing I did was to formally make an
      offer to the candidate recommended by the hiring panel.

       We investigated the explanation Schlozman provided in this
response. As an interim U.S. Attorney, Schlozman did not have
authority to hire AUSAs without permission from the Department,
through EOUSA. Schlozman’s e-mail to EOUSA touted the applicants’
political affiliations, and he received permission to fill certain AUSA
vacancies. However, we determined that the subsequent hiring process
at that office did not result in any of the applicants described in the
e-mail receiving an offer of employment.

      We also determined that the hiring process for career AUSAs in the
Western District of Missouri during Schlozman’s tenure as interim
U.S. Attorney was handled by a panel of career AUSAs and that
Schlozman was not involved in the hiring process beyond getting
permission to fill the positions. Accordingly, we concluded that
Schlozman’s response to Senator Leahy’s question for the record did not
constitute a false statement regarding the hiring of the AUSAs in
Missouri.

      However, we believe his response is misleading in that he
suggested that his request to fill the AUSA positions was the only time he
considered political affiliations in the hiring process. (“I recall once
noting the likely political leanings of several applicants in response to a


                                    62
query from EOUSA about the candidates being considered for the
position.”) In fact, as detailed above, he often considered political and
ideological affiliations in hiring decisions while in the Civil Rights
Division.


IV. Criminal Referral

       We have referred this matter to the U.S. Attorney’s Office for the
District of Columbia for a decision on whether the evidence warrants a
criminal prosecution. We provided to the prosecutor the evidence we
gathered in the course of our investigation, including transcripts of
interviews and relevant documents and e-mails.




                                     63
                     CHAPTER FIVE:
           CONCLUSIONS AND RECOMMENDATIONS
      Our investigation examined whether:

      (1) the Civil Rights Division improperly used political or ideological
          affiliations in assessing applicants for career attorney positions,
          including hiring for both experienced attorneys and entry-level
          attorneys through the Honors Program;

      (2) political or ideological affiliations resulted in other personnel
          actions that affected career attorneys in the Division, such as
          attorney transfers and attorney case assignments;

      (3) the Division’s senior management exercised appropriate
          oversight of Schlozman’s actions in the hiring and treatment of
          career attorneys; and

      (4) Schlozman made false statements in his testimony to Congress
          about these matters.

       The evidence in our investigation showed that Schlozman, first as
a Deputy Assistant Attorney General and subsequently as Principal
Deputy Assistant Attorney General and Acting Assistant Attorney
General, considered political and ideological affiliations in hiring career
attorneys and in other personnel actions affecting career attorneys in the
Civil Rights Division. In doing so, he violated federal law – the Civil
Service Reform Act – and Department policy that prohibit discrimination
in federal employment based on political and ideological affiliations, and
committed misconduct. The evidence also showed that Division
managers failed to exercise sufficient oversight to ensure that Schlozman
did not engage in inappropriate hiring and personnel practices.
Moreover, Schlozman made false statements about whether he
considered political and ideological affiliations when he gave sworn
testimony to the Senate Judiciary Committee and in his written
responses to supplemental questions from the Committee.

       Schlozman is no longer employed by the Department and,
therefore, is not subject to disciplinary action by the Department. We
recommend, however, that, if criminal prosecution is declined these
findings be considered if Schlozman seeks federal employment in the
future. We believe that his violations of the merit system principles set
forth in the Civil Service Reform Act, federal regulations, and Department
policy, and his subsequent false statements to Congress render him
unsuitable for federal service.



                                     64
       We also recommend that the Department consider taking
additional action in light of the findings in this report. According to a
March 2008 memorandum from the Attorney General, beginning in the
summer of 2007, new political employees at the Department are briefed
on “Merit System Principles and Prohibited Personnel Practices” as part
of their orientation process. In the memorandum, the Attorney General
expressed a commitment to “ensur[e] that all serving political appointees
are provided the same information” and that they must acknowledge that
they understand the principles.

       In addition to these positive steps already taken, we recommend
that the Department regularly provide training on merit system
principles and prohibited personnel practices in the Civil Service Reform
Act, federal regulations, and Department policies to personnel with a role
in hiring or supervising career employees. Most of the Department
attorneys we interviewed who had a role in the hiring process told us
they received no such training on the applicable laws, regulations, and
Department policies regarding the consideration of political and
ideological affiliations or other impermissible factors. Most also said they
only had a general sense of what considerations were prohibited. We
believe that training should be provided to employees when they enter
supervisory positions and when they assume any hiring responsibilities.
The Department should also provide periodic refresher training
reinforcing the law regarding impermissible factors in hiring and
personnel actions.

      We also recommend that the Department consider issuing periodic
statements to all employees about what constitutes prohibited personnel
practices under federal law, regulations, and Department policy. These
statements should affirm that the Department, as an employer, is
committed to compliance with all laws, regulations, and policies. The
Department should provide information to employees about how they can
report violations and where they can seek redress.

       In sum, our report found that Schlozman considered political and
ideological affiliations when hiring and taking other personnel actions
relating to career attorneys, in violation of Department policy and federal
law, and his actions also constitute misconduct. We also believe he
made false statements to Congress about his actions.

      We believe that the Department should take action, including
implementing our recommendations, to help ensure that such conduct
does not occur in the future.




                                    65
                        APPENDIX:
       CAREER ATTORNEY HIRING, CIVIL RIGHTS DIVISION,
                       2003 – 2006

      Listed below are affiliations found on applicants’ résumés or
application material credentials that resulted in our counting an
applicant as Republican, conservative, Democrat, or liberal:

Republican
   Membership in Republican group
      Republican National Lawyers Association
      Republican Student Lawyers Association
      College Republicans
      Young Republicans
      Republican Women
      Filipino-American Republicans

   Employment or internship with Republican Member of Congress or
   state legislator

   Employment or internship with Republican organization
      Republican National Committee
      Republican Policy Committee of the U.S. House of Representatives
      National GOP Congressional Committee

   Participated in Republican political campaign
      Elected GOP councilman
      Ran for delegate to GOP convention
      Bush/Cheney volunteer
      Worked as staff on GOP candidate’s campaign

   Employment at Bush White House

   Participation on George W. Bush presidential library steering
   committee

Conservative
   Federalist Society

   Coalition for Life

   Blackstone Fellowship




                                   A-1
Democrat
   Employment with Democratic Member of Congress

   Political appointee during Democratic administration

Liberal
   Employment or internship with group
      American Civil Liberties Union
      Homeless Advocacy Project
      Washington Legal Clinic for the Homeless




                                  A-2
